    DEPARTMENT OF HOMELAND SECURITY

      Ofﬁce of Inspector General

                     Review of the
       Transportation Security Administration’s
         Role in the Use and Dissemination of
                Airline Passenger Data
                       (Redacted)




The Department of Homeland Security, Ofﬁce of Inspector General, has redacted this
report for public release under the Freedom of Information Act, 5 U.S.C. § 552(b)(4).




  Ofﬁce of Inspections, Evaluations, & Special Reviews


OIG-05-12                                              March 2005
                                                                    Ofﬁce of Inspector General

                                                                    U.S. Department of Homeland Security
                                                                    Washington, DC 20528




                                             Preface

The Department of Homeland Security (DHS) Ofﬁce of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports prepared by
the OIG as part of its DHS oversight responsibilities to promote economy, effectiveness, and
efﬁciency within the department.

This report assesses TSA’s role in the use and dissemination of airline passenger data, assesses
TSA’s related disclosures, and evaluates the agency’s operating environment with respect to
privacy issues. It is based on interviews and exchanges with employees and ofﬁcials of the
Transportation Security Administration, other federal agencies, and contractors, as well as a
review of applicable documents.

The recommendations herein have been developed to the best knowledge available to the OIG,
and have been discussed in draft with those responsible for implementation. It is our hope that
this report will result in more effective, efﬁcient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                             Richard L. Skinner
                                             Acting Inspector General
                                                                                                                       Contents


Introduction..................................................................................................................................... 5

Results in Brief ............................................................................................................................... 6

Background ..................................................................................................................................... 9

                CAPPS .......................................................................................................................... 9

                CAPPS II..................................................................................................................... 11


                Statutory Requirements............................................................................................... 13

                Public Disclosure of Information................................................................................ 14

Purpose, Scope, and Methodology................................................................................................ 16

TSA’s Role in Airline Passenger Data Transfers........................................................................... 17

                Data Transfers to Support Other Federal Agencies..................................................... 17
                       United States Secret Service ........................................................................... 18
                       Army Subcontractor Torch Concepts .............................................................. 20

                Data Transfers Associated with CAPPS II Development ............................................25
                       Risk Assessment Engine Prototype Vendors................................................... 27
                       Airline Automation, Inc. ................................................................................. 30

                       Airline Data Interface Testing ......................................................................... 35
                       Sabre Holdings................................................................................................ 37

                Data Transfers in CAPPS Improvement Effort ........................................................... 38
                       CAPPS Improvement...................................................................................... 39

                Conclusions................................................................................................................. 40


Information Disclosure Regarding Airline Passenger Data Transfers ...........................................42

                FOIA Requests ............................................................................................................ 42




                                 TSA’s Role in the Use and Dissemination of Airline Passenger Data                                             Page 1
Contents


                   U.S. Senate Testimony ................................................................................................ 44


                   Government Accountability Ofﬁce and Media Reports.............................................. 45


                   Disclosure of Information to the DHS Privacy Ofﬁce .................................................46


                   Conclusions ................................................................................................................. 48


   TSA Privacy Focus ........................................................................................................................49



Appendices

   Appendix A:           Management Comments .....……………………………………………………. 52

   Appendix B:           OIG Evaluation of Management Comments ..…………………………………. 59

   Appendix C:           Recommendations ..……………………………………………………………. 64

   Appendix D:           Airline Passenger Data Transfers Covered in this Report ................................... 66

   Appendix E:           Conﬁdentiality and Disposition of Airline Passenger Data Transferred ............. 67

   Appendix F:           Airline Passenger Data Transfer Detail ............................................................... 68

   Appendix G:           Privacy Act of 1974 and E-Government Act of 2002… ....……………………. 70

   Appendix H:           JetBlue Passenger Data Provided to TSA............................................................ 73

   Appendix I:           DHS Privacy Ofﬁce Requests of TSA................................................................. 74

   Appendix J:           Major Contributors… .....………………………………………………………. 76

   Appendix K:           Report Distribution… ..………………………………………………………… 77



Figures

   Figure 1:             Overview of Major CAPPS II System Components ........................................... 12





Page 2                             TSA’s Role in the Use and Dissemination of Airline Passenger Data
                                                                                            Contents


Abbreviations

  AAI         Airline Automation, Inc.
  ACLU        American Civil Liberties Union
  ATSA        Aviation and Transportation Security Act
  ADI         Airline Data Interface
  AVOPS       Transportation Security Administration, Aviation Operations
  CAPPS       Computer Assisted Passenger Pre-screening System
  CAPPS II    Computer Assisted Passenger Pre-screening System, Second Generation
  CD          Compact Disc
  CFR         Code of Federal Regulations
  CIO         Chief Information Ofﬁcer
  CPO         Chief Privacy Ofﬁcer
  CRS         Computerized Reservation System
  DARPA       Defense Advanced Research Projects Agency
  DHS         Department of Homeland Security
  DOD         Department of Defense
  DOT         Department of Transportation
  FAA         Federal Aviation Administration
  Fed. Reg.   Federal Register
  FOIA        Freedom of Information Act
  FTP         File Transfer Protocol
  GAO         Government Accountability Ofﬁce
  GDS         Global Distribution System
  IBM         International Business Machines Corporation
  MOU         Memorandum of Understanding
  OCC         Transportation Security Administration, Ofﬁce of Chief Counsel
  OIG         Ofﬁce of Inspector General
  OMB         Ofﬁce of Management and Budget, Executive Ofﬁce of the President
  ONRA        Transportation Security Administration, Ofﬁce of National Risk Assessment
  PIA         Privacy Impact Assessment
  PNR         Passenger Name Record
  RAE         Risk Assessment Engine
  TSA         Transportation Security Administration
  SCPC        Selectee Checkpoint Program Completion Team
  U.S.C.      United States Code
  USSS        United States Secret Service



                        TSA’s Role in the Use and Dissemination of Airline Passenger Data         Page 3
Contents





Page 4      TSA’s Role in the Use and Dissemination of Airline Passenger Data
OIG

Department of Homeland Security
Ofﬁce of Inspector General


    Introduction
                               TSA has authority to access and obtain airline passenger data under provisions
                               of its enabling statute, the Aviation and Transportation Security Act (ATSA)
                               of November 2001.1 The Assistant Secretary2 for TSA may establish policies
                               and procedures requiring airlines to provide passenger data in order to protect
                               transportation security.3 The Assistant Secretary is further authorized to require
                               “passenger air carriers to share passenger lists … for the purpose of identifying
                               individuals who may pose a threat to aviation or national security.”4

                               As the federal agency in charge of aviation security, TSA is also responsible
                               for providing oversight of passenger pre-screening efforts.5 Since 1998, airline
                               passenger pre-screening has been performed using a data analysis application
                               called the Computer Assisted Passenger Pre-screening System (CAPPS). After
                               TSA assumed oversight of passenger pre-screening in February 2002, the agency
                               began developing a second generation system, CAPPS II, to improve upon the
                               existing system. TSA no longer plans to implement CAPPS II, and recently
                               announced its intention to proceed with the testing and deployment of a new
                               passenger pre-screening system, Secure Flight. Through its efforts to implement
                               the Secure Flight system, TSA will continue to work with airline passenger data.
                               The agency’s handling of airline passenger data will, therefore, continue as TSA
                               seeks to fulﬁll this mission.

                               In February 2004, the Department of Homeland Security (DHS) Privacy Ofﬁce
                               issued a Report to the Public on Events Surrounding jetBlue Data Transfer in


    1
      Public Law No. 107-71.

    2
      ATSA established TSA under the Department of Transportation. The head of TSA was the Under Secretary of 

    Transportation for Security. Under the Homeland Security Act of 2002, Public Law 107-296, TSA transferred to DHS. 

    The head of TSA is now referred to as the Assistant Secretary of Homeland Security for the Transportation Security 

    Administration. 

    3
      49 U.S.C. § 114(d)(1), § 114(e), and § 44901(a).

    4
      The Assistant Secretary must consult with the Transportation Security Oversight Board before establishing this requirement. 

    49 U.S.C. § 114(h)(4).

    5
      49 U.S.C. § 44903(j)(2).




                                   TSA’s Role in the Use and Dissemination of Airline Passenger Data                       Page 5
                           connection with one of the data exchanges covered in this review.6 In its report,
                           the DHS Privacy Ofﬁce referred its ﬁndings to the DHS Ofﬁce of Inspector
                           General (OIG) for further review.7 The U.S. Army OIG independently conducted
                           an investigation into the same transfer and published a report on June 21, 2004.
                           Neither of these reports addressed the other cases of airline passenger data sharing
                           discussed in this review or TSA’s disclosures associated with those exchanges.



Results in Brief
                           In reviewing TSA’s role in the use and dissemination of airline passenger data,
                           we focused on data sharing in three contexts.8 First, we examined TSA’s efforts
                           to support the provision of airline passenger data to other agencies and their
                           contractors. Second, we explored airline passenger data transfers associated
                           with the Second Generation, Computer Assisted Passenger Pre-screening System
                           (CAPPS II). Third, we reviewed TSA’s role in obtaining airline passenger data to
                           improve the current CAPPS. We did not review TSA’s use or transfer of airline
                           passenger data for investigative, law enforcement, or other purposes.

                           In addition to TSA’s role in the use and dissemination of airline passenger data,
                           we reviewed TSA’s disclosures of information associated with its involvement in
                           airline passenger data transfers. Finally, we reviewed measures TSA has taken to
                           address data privacy and conﬁdentiality issues.

                           We examined information related to TSA’s role in fourteen transfers of airline
                           passenger data.9 In two cases, these transfers did not result in any data review
                           or analysis on the part of the recipients. Collectively, the remaining transfers
                           involved more than 12 million records associated with passengers traveling on
                           at least six air carriers – America West Airlines, American Airlines, Continental
                           Airlines, Delta Air Lines, Frontier Airlines, and JetBlue Airways.




6
  JetBlue Airways’ corporate logo represents the airline’s name with a lowercase “j.” Accordingly, the DHS Privacy Ofﬁce 

spelled “jetBlue” with a lowercase “j” in its report. Because the airline’s incorporated name, “JetBlue Airways Corporation,” 

appears with a capital “J,” we have adopted this spelling in the body of our report.

7
  DHS Privacy Ofﬁce, Report to the Public on Events Surrounding jetBlue Data Transfer, February 20, 2004, p. 9.

8
  As used in this report, “data sharing” refers to the transfer of data from one entity to another. Under this deﬁnition, data 

sharing includes the transfer of data in one direction, and does not necessarily imply two-way data transfers between the 

parties to the sharing.

9
  Under the deﬁnition above, a transfer of several sets of records from one entity to another is counted as a single transfer.



Page 6                         TSA’s Role in the Use and Dissemination of Airline Passenger Data
The fourteen transfers took place between February 2002 and June 2003. In two
instances of airline passenger data exchange, TSA sought to support the national
security functions of other agencies by facilitating transfers. In eleven cases, TSA
was engaged in efforts to develop CAPPS II. In one case, TSA obtained records
in order to study improvements to its existing CAPPS program. The information
that we gathered and analyzed with respect to all of these exchanges indicated
that, in each case, these data transfers were executed in the performance and
support of TSA’s responsibilities to improve transportation security.

According to the parties who received data in all but three of these transfers, the
transferred data has been destroyed or is retained in a secured setting. The ﬁrm
associated with the three remaining transfers did not provide information for our
review and, as a result, we have no information on the ﬁnal disposition of related
passenger data. In all but one case, information communicated in the transfers
was used for research purposes and did not result in any agency determinations
regarding individuals reﬂected in the data.

In its role in these transfers, however, TSA did not ensure that privacy protections
were in place for all of the passenger data transfers. While TSA applied privacy
protections in some contexts, shortcomings were also apparent in the agency’s
related contracting, oversight, and follow-up efforts.

Although TSA and the Federal Aviation Administration (FAA), acting on
TSA’s behalf, included language safeguarding the security and conﬁdentiality
of passenger information in some contracts and agreements, they did not do so
in all cases. In one case, the parties to a data transfer did not sign any contract
or agreement restricting the use or disclosure of shared data. Even when the
parties to a data transfer were bound by agreement, TSA failed to monitor and
enforce adherence to the terms of the agreement completely. In addition, TSA
did not consistently track the usage, security, or disposition of passenger data and
was, therefore, not in a position to determine whether such usage, security, or
disposition was appropriate.

Nevertheless, most of the transfers that we reviewed were executed between
parties bound by agreements forbidding additional sharing or disclosure of
the passenger information. Of the more than 12 million records transferred, a
passenger’s data was inappropriately disclosed to the public in only one instance.
In this instance, a government contractor’s inappropriate disclosure of information
was inadvertent.




   TSA’s Role in the Use and Dissemination of Airline Passenger Data          Page 7
                             CAPPS II and TSA staff viewed passenger data in only three cases. In one of
                             those instances, TSA did not demonstrate the effective use of sound privacy
                             practice.

                             In 2003 and 2004, TSA ofﬁcials made inaccurate statements regarding these
                             transfers that undermined public trust in the agency. These misstatements
                             were apparently not meant to mischaracterize known facts. Instead, they were
                             premised on an incomplete understanding of the underlying facts at the time the
                             statements were made.

                             Errors in TSA’s statements about these airline passenger data transfers arose from
                             internal document collection efforts that were incomplete and, in one case, from
                             inaccurate information from an airline. Early shortcomings in the production
                             of related documents have been improved by recent efforts within the agency to
                             provide for full disclosure.

                             TSA’s policy environment with respect to privacy has changed substantially
                             since its inception. From its inception, TSA recognized personal privacy and
                             conﬁdentiality as important concerns. Especially in the immediate aftermath
                             of the September 11, 2001, attacks, ﬁnding a balance between these concerns
                             and transportation and aviation security was a difﬁcult challenge. Over the past
                             twenty months, a number of important changes have expanded the prominence
                             of privacy concerns in the agency’s operations. Major new privacy legislation
                             is now in effect, and both DHS and TSA have dedicated staff to enforce this
                             legislation.10 In addition, program changes and the evolving public relations
                             position of the agency have helped foster a new organizational culture with
                             respect to matters of privacy. While TSA continues to balance privacy and
                             security, its declared commitments to both goals have been corroborated by its
                             recent actions.

                             We are recommending that the Assistant Secretary for Transportation Security, in
                             coordination with the Chief Privacy Ofﬁcer, as appropriate:

                                  1. 	 Develop clear protocols for obtaining airline passenger data and
                                       facilitating its exchange among other parties.

                                  2. 	 Ensure privacy and personal data protections are written into acquisition
                                       documents where performance may involve the collection, maintenance,
                                       use, or dissemination of individually identiﬁable data.

10
     Title II of the E-Government Act of 2002, Public Law No. 107-347, went into effect on April 17, 2003.


Page 8	                          TSA’s Role in the Use and Dissemination of Airline Passenger Data
                   3.   	 equire ﬁnal reporting for acquisitions with intensive data analysis
                        R
                        or processing components that addresses data receipt, processing,
                        distribution, utilization, and disposition, as well as attention to data
                        security and privacy.

                   4. 	 Require entities performing work for TSA to report to the agency on how
                        they are addressing data security, privacy protections, and conﬁdentiality.

                   5. 	 Re-evaluate TSA’s response to FOIA requesters who solicited
                        information in September 2003 regarding their airline passenger
                        data. Such a reevaluation should, at minimum, involve the removal or
                        amendment of the letter posted on TSA’s FOIA reading room web site to
                        reﬂect the fact that TSA is in possession of JetBlue passenger data.

                   6. 	 Adopt procedures for responding to external and intra-departmental
                        requests for information that help guarantee a comprehensive, timely, and
                        reliable response.

                   7. 	 Appoint a TSA external privacy advisory board, as speciﬁed in TSA’s
                        ﬁve-point plan, to review all agency privacy impact assessments, and, to
                        provide consultation regarding the scope and methods of TSA supported
                        data analysis and research involving individually identiﬁable data.

                   8. 	 Develop procedures that will provide a clear process to:
                        (1) approve the agency’s role in data sharing that involves individually
                        identiﬁable information; and, (2) identify a particular employee
                        responsible for monitoring the data security, usage, and ﬁnal disposition
                        of each transfer of individually identiﬁable information in which TSA
                        becomes involved.



Background
    The Computer Assisted Passenger Pre-screening System (CAPPS)

               Prior to the terrorist attacks of September 11, 2001, U.S. airlines analyzed airline
               passenger data to support aviation security for more than three years. Data
               submitted to airlines in the course of commercial transactions was routinely
               analyzed to identify “selectees” – individuals to receive additional security



                  TSA’s Role in the Use and Dissemination of Airline Passenger Data	               Page 9
                         screening. This data analysis was performed using a computer application called
                         CAPPS. The system was established in 1998, based on development efforts
                         begun in 1994 at Northwest Airlines in conjunction with funding from the FAA.

                         Aviation and security experts considered CAPPS an improvement in methods
                         of screening potential threats to aviation from a large and expanding passenger
                         base. The CAPPS program was structured to address various security, privacy,
                         and civil rights concerns. First, to reduce predictability and mitigate efforts
                         to reverse engineer the system, CAPPS included an element of randomness in
                         passenger selections. Second, to address concerns about data retention, ofﬁcials
                         guaranteed that no CAPPS information on passengers was retained after the safe
                         completion of their ﬂight. Third, to ensure that the system was not discriminatory,
                         CAPPS was reviewed by the U.S. Department of Justice and determined not to
                         discriminate illegally against travelers, or involve any invasion of passengers’
                         personal privacy.11

                         There were inherent CAPPS limitations, however. The system’s decentralization
                         ﬁgured prominently among these limitations. Signiﬁcantly, CAPPS was regulated
                         by the FAA and operated by the airlines. The FAA supplied scoring rules for
                         ﬂagging selectees, and the airlines used these rules to evaluate their passenger
                         data, generate scores for each passenger, and determine whether a passenger
                         would be selected for further security scrutiny. The decentralized nature of the
                         system complicated the process of updating rules to reﬂect new information, such
                         as intelligence about terrorist strategies and techniques.

                         The CAPPS system was also restricted in its informational reach. The CAPPS
                         analysis was limited to airline passenger data provided by passengers to airlines
                         and reservations systems. It did not: (1) access information on passengers
                         from publicly available commercial data sources; (2) analyze passenger data for
                         international ﬂights operated by foreign carriers; or, (3) tap into information on
                         government watch lists.

                         These CAPPS limitations and other aviation security weaknesses were most
                         evident with the multiple hijackings and terrorist attacks of September 11,
                         2001. On that morning, the nineteen hijackers were screened prior to boarding
                         four aircraft according to security measures in effect at the time. Seven of the
                         hijackers were among passengers chosen for additional security scrutiny based
                         on scores generated by CAPPS; two hijackers were selected for extra scrutiny

11
 U.S. Department of Justice press release, “Justice Department Review of FAA Passenger Screening Proposal Concludes It
Won’t Discriminate Against Airline Travelers,” October 1, 1997.


Page 10                      TSA’s Role in the Use and Dissemination of Airline Passenger Data
                          by an airline representative who found them to be suspicious; and one hijacker
                          was selected at random for additional security measures. As noted in the 9/11
                          Commission Report, the only consequence of the hijackers’ selection was that
                          their checked bags were submitted to additional scrutiny.12

        Second Generation Computer Assisted Passenger Pre-screening System
        (CAPPS II)

                          Authority to manage and regulate the CAPPS system was conferred upon TSA
                          when it assumed civil aviation security functions and responsibilities performed
                          by FAA on February 17, 2002.13 Department of Transportation (DOT) ofﬁcials
                          understood that TSA’s November 2001 enabling statute, ATSA, mandated
                          improvement of CAPPS; therefore, as early as December 2001, senior DOT
                          ofﬁcials started evaluating ideas for system improvements.

                          On March 1, 2002, transportation ofﬁcials chartered the formation of a team to
                          develop a second-generation pre-screening system, CAPPS II. Administrative
                          support for the project was provided under a contract with TRW, and information
                          and personnel resources were drawn from throughout the government. The
                          CAPPS II program budget and contracting staff came from the FAA’s Technical
                          Center in Atlantic City, New Jersey. Two special advisors to the Secretary
                          of Transportation were brought in to provide technical expertise on system
                          development. Just as early CAPPS II development efforts called on resources
                          within DOT, so, too, was knowledge and expertise outside of the department
                          sought. Staff from the Department of Defense’s (DOD’s) Defense Advanced
                          Research Projects Agency (DARPA) evaluated proposals and shared technical
                          insights during the March through June 2002 time frame.14 Also, CAPPS II
                          program staff received consultative and evaluative assistance from ofﬁcials
                          working with the interagency Foreign Terrorist Tracking Task Force and U.S.


12
   TSA now provides additional screening of a selectee’s person, in addition to their checked bags. See National Commission
on Terrorist Attacks Upon the United States, The 9/11 Commission Report, July 22, 2004, Chapter 1, “We Have Some
Planes,” for more detail on the screening of the September 11, 2001 hijackers.
13
   Notice of Assumption of Civil Aviation Security Functions, 67 Fed. Reg. 7939 (Feb. 20, 2002).
14
   Regarded as experts in automated risk assessment and systems development, the DARPA staff who helped evaluate
proposals in the spring of 2002 were afﬁliated with DARPA’s now defunct Total Information Awareness project. The Total
Information Awareness project, which was later renamed “Terrorism Information Awareness,” aimed to help predict terrorist
attacks by creating an electronic network with the capability to identify patterns of suspect activity in commercial and
government data systems. After expressions of concern by privacy advocates, Congress eliminated funding for the project in
the 2004 Department of Defense appropriation (Public Law No. 108-87 § 8131(a)). Apart from this limited consultation, we
found no other linkage between the CAPPS II program and the Total Information Awareness effort.


                              TSA’s Role in the Use and Dissemination of Airline Passenger Data                    Page 11
                           Customs. The MITRE Corporation also supported the CAPPS II proposal review
                           and contracting process.

                           During the July through August 2002 time frame, management and oversight of
                           CAPPS II development efforts shifted from the DOT chief information ofﬁcer’s
                           (CIO’s) ofﬁce to the TSA CIO’s ofﬁce. Both the executive sponsor15 and the
                           program manager for the initiative changed. Program management changed once
                           more in November 2002, when the project was moved to TSA’s Ofﬁce of National
                           Risk Assessment (ONRA).

                           Despite changes in program management, the fundamental concept behind
                           CAPPS II remained constant. From early 2002 forward, plans for an effective
                           CAPPS II system depended on the interplay of two major system components.
                           One system component, the Risk Assessment Engine (RAE), was to conﬁrm the
                           identity and assess the risk of passengers to aviation security. The other system
                           component, the Airline Data Interface (ADI), in turn, was to serve as the conduit
                           for passenger data to and from the RAE.

                                      Figure 1. Overview of Major CAPPS II System Components

     Airline Passenger
      Data Systems                                Airline Data Interface                           Risk Assessment Engine
                                                          (ADI)                                            (RAE )

                                                      Passenger Data
                                                                                                             Identity
                                                   Converted to Standard
                                                                                                            Verification
                                                     Format for RAE

         Varied
         Airline
        Passenger
          Data
                                                   Passenger Data Plus
                                                                                                                Risk
                                                  RAE Score Returned to
                                                                                                             Assessment
                                                    Original Format




15
  An executive sponsor is typically responsible for: (1) providing general guidance to the project team, (2) serving as liaison
between departmental leadership and the program manager, and (3) advocating for changes needed for effective program
development at the leadership level.


Page 12                        TSA’s Role in the Use and Dissemination of Airline Passenger Data
                            Prior to the system’s deployment, TSA needed to establish that CAPPS II and
                            its constituent parts would function properly in a real world setting. Therefore,
                            it was necessary to test the system’s prototypes and components. The ADI
                            component required testing to demonstrate that it could process large volumes
                            of diversely structured data into a common format and return data in its original
                            format with an appended passenger risk indicator. Testing was necessary because
                            airline passenger data is maintained in a number of Computerized Reservation
                            Systems (CRSes) and Global Distribution Systems (GDSes) that accumulate
                            disparate sets of passenger data in varied formats. While some passenger data
                            systems host limited information, others possess extensive data on individuals,
                            including the details of past travel, car and hotel reservation plans, dates of birth,
                            phone numbers, e-mail addresses, residential and business addresses, and credit
                            card information. Records that reﬂect detail on individual passengers’ travel plans
                            and booking information are known as Passenger Name Records (PNRs). ADI
                            speciﬁcations required that it have the initial capability to process two million
                            individual PNRs daily.

                            For the RAE component, a demonstration was necessary to prove that the system
                            could perform identity authentication functions using commercial data and cross-
                            reference passenger data against government watch lists. The effectiveness of
                            matching watch list information with commercial databases could be tested only
                            using information on real people. Accordingly, on some scale it was necessary to
                            use data on real people for RAE testing.

           Statutory Requirements

                            In addition to the technical and functional challenges that TSA faced in pursuit
                            of its mandate to pre-screen airline passengers, two statutes affected CAPPS II
                            development: the Privacy Act and the E-Government Act.16

                            The Privacy Act contains a number of noteworthy data privacy protections.
                            Provisions of the law, for example, restrict improper access to and disclosure of
                            personal information. The Privacy Act also includes requirements that federal
                            agencies publish information about records systems they maintain. The failure
                            to comply with these and other aspects of the law can result in civil or criminal
                            penalties.




16
     See Appendix G for further information on the Privacy Act and the E-Government Act.


                                TSA’s Role in the Use and Dissemination of Airline Passenger Data         Page 13
                         These provisions of the Privacy Act are invoked, however, only when an agency’s
                         records meet the legal standard for a “system of records.” A number of criteria
                         must be met for a set of records to meet the standard for a system of records
                         under the law. One criterion for meeting this standard is that an agency’s records
                         must be retrieved or accessed by the agency, or a proxy for the agency, using an
                         individually identifying particular, such as name or social security number.

                         Under the Privacy Act, notices for all government systems of record are to be
                         published in the Federal Register. Published systems of record notices document
                         the authorities under which the government agency maintains the system of
                         records, the purpose the system serves, the types of records contained in the
                         system, and their routine uses. In response to this provision of the Privacy Act,
                         DOT published an initial system of records notice for CAPPS II on January 15,
                         2003.17 After reviewing public comments on the initial CAPPS II notice, TSA
                         issued a revised Interim Final Notice for CAPPS II on August 1, 2003.18

                         Important provisions of the E-Government Act, a more recent statute applicable
                         to CAPPS II development, took effect in April 2003. The E-Government Act
                         requires all agencies to conduct Privacy Impact Assessments (PIAs) for new
                         information technology investments and new electronic information systems
                         and collections. The PIA development process was designed to ensure that data
                         handling complies with relevant laws, that agencies consider the risks and effects
                         of their data systems, and that they examine system design alternatives to reduce
                         privacy risks. Ultimately, PIAs result in published documents that address the
                         above speciﬁed issues and provide greater detail about government information
                         systems than are required for Privacy Act system of records notices.19

          Public Disclosure of Information

                         To foster development and testing of CAPPS II and support improvements to the
                         original CAPPS, TSA participated in twelve airline passenger data transfers in
                         2002 and 2003. TSA had a role in two additional passenger data transfers in 2002
                         to support the work of other agencies. The public’s ﬁrst awareness of any of these
                         transfers came in September 2003.

                         In September 2003, the media reported on a transfer of JetBlue Airways passenger
                         data to DOD subcontractor Torch Concepts. TSA’s initial explanations regarding

17
   68 Fed. Reg. 2101 (Jan. 15, 2003).

18
   68 Fed. Reg. 45265 (Aug. 1, 2003).

19
   See Appendix G for more information on the Privacy Act and E-Government Act.



Page 14                      TSA’s Role in the Use and Dissemination of Airline Passenger Data
                          this transfer indicated that the agency had provided only an introduction between
                          the two parties. Later, TSA disclosed that it had requested in writing that JetBlue
                          provide passenger data to Torch Concepts.

                          Senators, privacy advocacy groups, and the media initiated a series of requests
                          for information following the release of these stories and statements regarding the
                          data transfer to Torch Concepts. The DHS Privacy Ofﬁce and the Army OIG later
                          conducted inquiries into the data transfer.

                          On February 20, 2004, the DHS Privacy Ofﬁce issued a Report to the Public
                          on Events Surrounding jetBlue Data Transfer that addressed the transfer of
                          airline passenger data from JetBlue to Torch Concepts. The DHS Privacy Ofﬁce
                          found no violations of the Privacy Act on the part of TSA employees. However,
                          according to the report, it was “beyond the scope of the Privacy Ofﬁce to
                          determine whether these employees may have otherwise exceeded the normal
                          scope of TSA operations.”20 Accordingly, we decided to review TSA’s use and
                          dissemination of airline passenger data in this and all other relevant cases.

                          The Army OIG conducted a separate inquiry into the same transfer and issued
                          a report on June 21, 2004.21 The Army OIG report found that its subcontractor,
                          Torch Concepts, did not violate the Privacy Act in its receipt and analysis of the
                          JetBlue data.

                          In April 2004, American Airlines released a statement saying that in June 2002, at
                          the request of TSA, some passenger travel data was turned over by an American
                          Airlines vendor to four research companies vying for contracts with TSA. The
                          same month, the vendor, Airline Automation, Inc. (AAI), released a press
                          statement saying that it provided American PNR data in 2002 to four companies
                          that were then testing aviation security systems for TSA.

                          In light of past TSA statements that the CAPPS II program had not used airline
                          passenger data for testing, the disclosure that companies working with TSA
                          obtained airline passenger data in 2002 to test aviation security systems fueled
                          public assertions and reports that the agency was withholding information about
                          its operations.


20
   Department of Homeland Security, Privacy Ofﬁce, Report to the Public on Events Surrounding jetBlue Data Transfer, 

February 20, 2004, p. 9.

21
   U.S. Department of Defense, Department of the Army, Ofﬁce of the Inspector General, Report of Investigation 

04-007, JetBlue, (hereinafter referred to as Army OIG Report), June 21, 2004.



                              TSA’s Role in the Use and Dissemination of Airline Passenger Data                   Page 15
              These reports were reinforced by later TSA disclosures that it had used airline
              passenger data for testing CAPPS II prototypes. On June 23, 2004, TSA’s
              Acting Administrator, in a nomination hearing to become Assistant Secretary
              of Homeland Security for TSA, revealed more information about TSA’s role
              in the transfer of airline passenger data. The Acting Administrator submitted
              a document for the congressional record that speciﬁed the use of six airlines’
              passenger data for CAPPS II prototype testing.



Purpose, Scope, and Methodology
              We conducted this review to determine whether TSA’s role and actions in the use
              and dissemination of airline passenger data were appropriate. Also, the review
              was conducted to resolve confusion about TSA’s involvement in cases of airline
              passenger data sharing and to identify the cause of this confusion.

              We framed our review around three objectives:

                  • 	 Present a comprehensive summary of TSA’s role in the analysis and
                      transfer of airline passenger data;
                  • 	 Assess the extent to which TSA was forthcoming in disclosing
                      information related to these transfers; and
                  • 	 Evaluate TSA’s current operating environment with respect to matters of
                      privacy and the sharing and exchange of passenger data.

              Our ﬁeldwork was carried out from April to August 2004. This ﬁeldwork
              included substantial ﬁle reviews and more than 40 interviews. We interviewed
              TSA personnel at headquarters and several TSA ﬁeld ofﬁces, as well as personnel
              from other agencies. Among those interviewed were: the former Deputy
              Secretary of Transportation; the former DOT chief information ofﬁcer designate;
              the former TSA deputy administrator; the DHS chief privacy ofﬁcer (CPO); the
              Ofﬁce of National Risk Assessment director; the TSA chief information ofﬁcer;
              the TSA associate director of the Freedom of Information Act and Privacy Act
              Division; and the TSA chief counsel.

              Additionally, we interviewed or queried CAPPS II program contractors,
              cooperative agreement recipients, and grantees; select airlines; global distribution
              systems; and airline data aggregators. We contacted all of the early CAPPS II
              prototype vendors: Ascent Technology, Inc.; HNC Software, Inc.; Infoglide
              Software Corporation; International Business Machines Corporation (IBM);


Page 16	         TSA’s Role in the Use and Dissemination of Airline Passenger Data
                and the Lockheed Martin Corporation. After identifying contacts for each ﬁrm,
                we requested interviews. Each of the companies made it clear that they were
                not willing to submit to an interview. As a substitute for interviews, we sent
                questionnaires to each of the companies. HNC Software/Fair Isaac was the
                only vendor that did not respond to our questionnaire. We incorporated the
                other companies’ responses in the draft where appropriate. We also interviewed
                representatives from Acxiom, Airline Automation, Inc., Delta Air Lines, Galileo,
                JetBlue Airways, Sabre Holdings, and Torch Concepts.

                These efforts were supplemented by the review of CAPPS II program and
                contracting ﬁles, as well as materials that TSA components submitted to the TSA
                FOIA ofﬁce in response to related FOIA requests.

                TSA’s leadership, persons involved in CAPPS II development, and TSA’s rank
                and ﬁle staff all made themselves available to us during the course of our inquiry
                and, in many cases, provided indispensable support.

                This special review was conducted under the authority of the Inspector General
                Act of 1978, as amended and according to inspections standards promulgated by
                the President’s Council on Integrity and Efﬁciency.

TSA’s Role in Airline Passenger Data Transfers
                To repeat, we reviewed TSA’s role in airline passenger data transfers in three
                operational contexts. First, we reviewed TSA’s role in airline passenger data
                transfers to support other federal agencies. Second, we explored airline passenger
                data transfers associated with CAPPS II. Third, we reviewed TSA’s role in
                obtaining airline passenger data to improve the current CAPPS system.

     Data Transfers to Support Other Federal Agencies

                TSA facilitated airline passenger data sharing to support the national security
                functions of other agencies in two cases. In the ﬁrst instance, TSA assisted the
                U.S. Secret Service (USSS) in obtaining data to assist with the security efforts
                at the Salt Lake City Winter Olympics in early 2002. In the other case, CAPPS
                II program staff requested that JetBlue furnish passenger records to an Army
                subcontractor, Torch Concepts, for its work on a base security enhancement
                project.




                   TSA’s Role in the Use and Dissemination of Airline Passenger Data        Page 17
                           United States Secret Service

                           The 2002 Winter Olympics in Salt Lake City, Utah, was designated a “National
                           Security Special Event.” With this designation, the USSS became the lead agency
                           for designing, planning, and implementing security.22 USSS security coordination
                           for the Olympics included collaboration with TSA.

                           The USSS assistant director for Protective Research sent a letter, dated January
                           11, 2002, to the FAA deputy associate administrator for Civil Aviation Security
                           requesting a civil aviation security directive authorizing dissemination of airline
                           passenger information to the USSS to support efforts to coordinate security at the
                           Olympics. In addition, this information would facilitate the evaluation of a new
                           project that included a process “to allow federal law enforcement the capability
                           of name checking passengers against selected law enforcement databases.”
                           The project drew on coordination among the USSS, Delta Air Lines, ARINC
                           Incorporated (an aviation communications and engineering company), and
                           InRange Technology Corporation, an information technology ﬁrm.

                           On February 5, 2002, TSA directed Delta to provide airline passenger data to the
                           USSS to enhance security for the 2002 Winter Olympic Games.23 TSA issued
                           this authorization by security directive, a power the administrator of TSA may
                           use to mandate actions on the part of aviation sector entities to respond to threat
                           assessments or speciﬁc threats against civil aviation.24 In this case, TSA’s security
                           directive expressly ordered Delta to provide PNR and other customer information
                           details, including dates of birth, to the USSS. It authorized Delta to provide
                           this information for all passengers traveling on ﬂights through February 26,
                           2002, to locations hosting Olympic events and any other venues selected by the
                           USSS or its partners.25 In addition, it speciﬁed that data recipients were to limit
                           dissemination of the passenger data strictly to personnel in their organizations
                           with an operational need-to-know. No airline other than Delta was subject to this
                           security directive.



22
   18 U.S.C. § 3056(e)(1).
23
   Security Directive 108-02-02, signed February 5, 2002.
24
   14 CFR § 108.305. Effective February 17, 2002, this provision was transferred to 49 CFR § 1544.305, 67 Fed. Reg. 8340
(Feb. 22, 2002).
25
   According to the TSA security directive, Delta was authorized to provide passenger data for passengers on ﬂights beginning
on February 1, 2001. Delta ofﬁcials report, however, that this was a typographical error in the security directive and that the
TSA administrator manually changed the date to February 1, 2002, on Delta’s signed copy. Because the security directive
also notes that the USSS believed data collected a year before the Olympics may be relevant to event security, we believe the
authorization was intended to apply to data from February 1, 2001 forward.


Page 18                        TSA’s Role in the Use and Dissemination of Airline Passenger Data
                         Pursuant to the security directive, Delta provided airline passenger data to the
                         USSS. To set out parameters for USSS handling of its passenger data, Delta
                         signed a Memorandum of Understanding (MOU) with the USSS on February
                         8, 2002. The MOU set boundaries on data disclosure and speciﬁed that the
                         data would be destroyed as soon as possible following the security directive’s
                         expiration date. Passenger data disclosure was restricted to the following parties:

                              • 	 USSS staff with an operational need to know;
                              • 	 Other governmental agencies, as necessary, to execute legitimate law
                                  enforcement activities; and
                              • 	 USSS partners, ARINC and InRange.

                         Delta ofﬁcials said that its airline passenger records were transferred over a
                         private, secure encrypted network. The passenger records that it furnished to the
                         USSS corresponded to incoming ﬂights to airports in the vicinity of Salt Lake
                         City, Utah. The USSS received only a subset of information contained within
                         Delta’s passenger name records, including ﬁrst and last name, address, phone
                         number, and ﬂight information. The airline said it restricted the information it
                         shared with the USSS to a minimum.

                         Once received, according to the USSS, the records were stored on a stand-alone
                         computer in a secure location and were not shared with any parties outside the
                         USSS. The USSS does not know the exact number of records it received, but it
                         reports that they were all destroyed following the Olympics. The USSS used the
                         data to determine whether individuals of interest to the agency were traveling in
                         the vicinity of the Olympics. In the process, the USSS also assessed the quality of
                         its pilot program with Delta, InRange, and ARINC.

                         At no time were Delta passenger records relating to this transfer transmitted or
                         otherwise provided to TSA. TSA did not facilitate the transfer of any additional
                         passenger data in relation to the Olympics. TSA’s security directive expired with
                         the conclusion of the Olympics.

                         At the time of the passenger data transfer, the USSS maintained a declared
                         system of records that TSA asserts applied to the acquisition and analysis of these
                         passenger records. In particular, TSA holds that the USSS August 28, 2001,
                         Privacy Act systems of record notice for its Protection Information System covers
                         the airline passenger data it received in February 2002.26 The declared categories

26
 U.S. Department of Homeland Security, Transportation Security Administration, Ofﬁce of Chief Counsel, Report on
Passenger Name Record Data Exchanges Involving Projects to Improve Passenger Screening, August 18, 2004, p. 62.


                             TSA’s Role in the Use and Dissemination of Airline Passenger Data	                Page 19
                           of records associated with this USSS system include “records containing
                           information compiled for the purpose of identifying and evaluating individuals
                           who may constitute a threat to the safety of persons or security of areas protected
                           by the USSS.”27

                           Army Subcontractor Torch Concepts

                           JetBlue Passenger Data Transfer

                           Torch Concepts is a small Huntsville, Alabama, ﬁrm with proprietary data
                           analysis software that it operates under the name “Acumen.” According to Torch
                           Concepts’ Chief Executive Ofﬁcer, the ﬁrm previously had done work for the
                           military and considered applying its technology to a broader array of homeland
                           security efforts after September 11, 2001.

                           In March 2002, Torch Concepts became a subcontractor of SRS Technologies
                           on the Army’s Base Security Enhancement Study.28 The Army enlisted Torch
                           Concepts’ services to prove the feasibility of its approach to uncovering terrorist
                           activities. Under the terms of its task order, Torch Concepts was to use its
                           software to search airline passenger data for terrorists whose records were to be
                           added to the passenger data set used in the analysis.

                           Torch Concepts had difﬁculty securing the data that were essential to meet the
                           terms of its subcontract. After initial overtures to Delta and American failed to
                           yield data, Torch Concepts sought TSA’s assistance.29

                           On June 4, 2002, Torch Concepts met with the Army technical representative for
                           the ﬁrm’s subcontract, the CAPPS II executive sponsor, the CAPPS II program
                           manager, and a DOT congressional liaison. At the meeting, Torch Concepts
                           discussed its work for the Army and gave a presentation on its Acumen software.
                           According to Torch Concepts, CAPPS II was not discussed during the meeting.
                           By the date of this meeting, the CAPPS II program team had agreements with
                           four companies to develop CAPPS II risk assessment prototypes. Because they


27
   Treasury/USSS.007, United States Secret Service Notice of Systems of Records, 66 Fed. Reg. 45362 (Aug. 28, 2001).

28
   SRS Technologies was the prime contractor for this study, while Torch Concepts received funding for its proof-of-principle. 

A proof-of-principle establishes that a given tool or concept can be used to solve a given kind of problem. In this case, 

Torch Concepts was to prove that its Acumen software was capable of solving problems similar to those encountered in base 

security settings.

29
   These overtures to Delta and American occurred during December 2001 and January 2002, months before the Army 

subcontract with Torch Concepts. 



Page 20                        TSA’s Role in the Use and Dissemination of Airline Passenger Data
                          had already selected vendors for this aspect of CAPPS II, program staff did not
                          consider Torch Concepts a prospective partner in system development.

                          The former CAPPS II program manager said that, following the initial meeting
                          with Torch Concepts, the CAPPS II’s executive sponsor instructed him to assist
                          Torch Concepts. In our interview with the former CAPPS II executive sponsor, he
                          could not recall having given such an instruction, but said that it was possible that
                          he did so. We could ﬁnd no documentary evidence that would settle the matter.

                          On June 12, 2004, the Army’s technical representative overseeing the Torch
                          Concepts subcontract e-mailed the CAPPS II program manager. It is clear from
                          this e-mail that the technical representative understood TSA was to provide
                          a “sample airline reservation data set” for Torch Concepts. An attachment
                          setting out Torch Concepts’ program scope and plans for its proof-of-principle
                          speciﬁcally itemizes the airline reservation data elements Torch Concepts
                          required.

                          Three additional meetings between CAPPS II program representatives and
                          representatives of the Army or Torch Concepts took place during June and
                          July 2002. Over the course of these meetings, Torch Concepts developed an
                          understanding that TSA would provide the company with a PNR database.

                          In late July, the CAPPS II program manager contacted JetBlue Airways to request
                          the airline’s assistance in securing passenger data for Torch Concepts. After
                          soliciting JetBlue’s assistance over the phone, the CAPPS II program manager
                          followed up with an e-mail on July 31, 2002, to JetBlue’s director of Corporate
                          Security. This e-mail included an attached memorandum titled “Request for PNR
                          Data for a Department of Defense (DOD) Proof of Concept.” The memorandum
                          brieﬂy described Torch Concepts’ DOD related work, requested the assistance
                          of JetBlue in providing passenger data, and articulated the process whereby
                          JetBlue passenger data should be provided to Torch Concepts. The memorandum
                          speciﬁed that JetBlue should provide PNRs to Torch Concepts via a JetBlue
                          contractor, Acxiom, Inc.30 It also stated that “any non-disclosure agreements that
                          need[ed] to be executed [could] be exchanged directly between the parties with
                          copies provided to both DOD and TSA.”

                          The former CAPPS II program manager said that he did not believe that he had
                          the authority himself to send such a request, but that he had received general

30
  Acxiom is a commercial database management company that provides data services to a wide range of clients, including
several airlines.


                             TSA’s Role in the Use and Dissemination of Airline Passenger Data                  Page 21
                          authorization from the CAPPS II executive sponsor to assist Torch Concepts.
                          Neither the CAPPS II executive sponsor, nor the DOT Deputy Secretary who had
                          an active role in CAPPS II planning, reports having had any contemporaneous
                          knowledge of the JetBlue data transfer to Torch Concepts.

                          In September 2002, Acxiom provided Torch Concepts with approximately
                          ﬁve million JetBlue PNRs representing 2,226,715 passengers. These records
                          corresponded to JetBlue passengers traveling over a 33-month period. Torch
                          Concepts received this data set in an encrypted format via a File Transfer Protocol
                          (FTP) web site maintained by Acxiom. Before the data transfer, Torch Concepts
                          and Acxiom entered into a conﬁdentiality agreement that bound both parties to
                          maintain the conﬁdentiality of passenger data.31

                          After evaluating the JetBlue PNRs, Torch Concepts found that the data did not
                          have certain elements the ﬁrm anticipated using to establish its proof.32 Torch
                          Concepts then purchased supplementary demographic information on passengers
                          from Acxiom. This commercially available dataset of demographic information
                          included social security numbers, salary data, housing ownership indicators, and
                          length of residence, among other information. Acxiom matched the demographic
                          data to the JetBlue airline passenger data and provided it to Torch Concepts.

                          The combined data set contained certain ambiguities and anomalies that Torch
                          Concepts believed it had to resolve before proceeding with its proof. To study
                          ways to resolve these data issues, Torch Concepts accessed a limited number
                          of records corresponding to individual passengers. After discarding certain
                          anomalous records, Torch Concepts stripped passenger names and deleted all but
                          two digits of passengers’ social security numbers.

                          Torch Concepts followed the same internal security procedure each time it
                          received data from Acxiom. In each case, Torch Concepts decrypted the ﬁles it
                          received via Acxiom’s FTP site and then disconnected the host computer from the
                          internet and intranet. Only one Torch Concepts employee was permitted access to
                          the data.

                          According to Torch Concepts, the data on JetBlue passengers remained secure
                          and was not disclosed in violation of Torch Concepts’ conﬁdentiality agreement


31
  Torch Concepts and Acxiom entered into a conﬁdentiality agreement on April 25, 2002. 

32
  Torch Concepts speciﬁcally mentioned passenger miles ﬂown during the past year and over the passengers’ lifetime, and 

frequent ﬂier club membership.



Page 22                       TSA’s Role in the Use and Dissemination of Airline Passenger Data
                         until April 2003, when a representative of the ﬁrm gave a presentation at a
                         software developers’ conference. On April 4, 2003, Torch Concepts delivered
                         a presentation at the Southeastern Software Development Conference. Torch
                         Concepts reports that this presentation was intended for delivery to the Army and
                         was inadvertently given to a wider audience.

                         A slide in the presentation displayed “Anomalous Information on One
                         Passenger.” This slide presented forty-two lines of data with addresses, social
                         security numbers, dates of birth, and indicators of length of residence. Torch
                         Concepts developed this slide to highlight the challenges it faced in analyzing the
                         sometimes confusing data it received on individual passengers. To support this
                         point, Torch Concepts displayed mixed information from Acxiom’s demographic
                         data set that had been matched to data from a single JetBlue passenger. According
                         to an attorney for Torch Concepts, this data was selected because it contained
                         numerous anomalies. The demographic data presented on the slide includes
                         twenty-three different addresses and three social security numbers. To present
                         anomalous demographic data that had been matched to one passenger instead
                         of several, Torch Concepts picked out and displayed records with the same
                         identifying key.33

                         Together with the rest of Torch Concepts’ April 2003 presentation, this slide
                         was later posted on the internet. As a result, sensitive information associated
                         with a JetBlue passenger became freely and publicly available. Torch Concepts’
                         subsequent efforts to remove the presentation from the internet have failed.

                         In September 2003, Torch Concepts attempted to delete all electronic passenger
                         and demographic data associated with its subcontract. A subsequent audit of
                         Torch Concepts’ ﬁles, however, revealed that traces of some data remained. Torch
                         Concepts forwarded these to its attorney, who retains the system hardware with
                         the data in a secure setting.

                         After 2002, TSA did not coordinate with Torch Concepts on the progress or
                         results of the Army Base Security Enhancement Study. Despite the CAPPS II
                         program manager’s request for copies of non-disclosure agreements executed in
                         support of the JetBlue data transfer, Torch Concepts never provided a copy of its
                         conﬁdentiality agreement to TSA.



33
  This identifying key was developed by Acxiom and provided to Torch Concepts as a data element in the demographic data
set.


                             TSA’s Role in the Use and Dissemination of Airline Passenger Data                  Page 23
                           Summary Findings

                           Early TSA and CAPPS II efforts were pursued in an environment of “controlled
                           chaos” and “crisis mode” after the September 11 attacks. Management changes
                           were frequent and chains of command were blurred. Two years later, a clear
                           line of authorization for TSA’s request to JetBlue cannot be established. Despite
                           the former CAPPS II program manager’s belief that he did not have authority
                           to make a request of JetBlue, many of TSA’s current and former staff, including
                           TSA’s former deputy administrator and an attorney with TSA’s chief counsel,
                           believe that he did. The former DOT Deputy Secretary said that while he
                           did not authorize TSA’s involvement in the Torch Concepts transfer at the
                           time, he accepted responsibility for it. The former Deputy Secretary’s “titular
                           accountability,” however, does not answer the question of whether the CAPPS
                           II program manager had actual authority to authorize the exchange or had been
                           authorized by someone with authority to do so. We found no regulation or
                           directive that explains how requests like Torch Concepts’ are to be evaluated or by
                           whom they may be approved.

                           Despite the ambiguity in how the request from Torch Concepts was processed
                           for approval, TSA’s limited role in this data transfer was in compliance
                           with its governing statutes. TSA is responsible for security in all modes of
                           transportation.34 Among TSA’s duties and powers is transportation security
                           planning, which includes “coordinating countermeasures with appropriate
                           departments.”35 TSA also has power to require airlines to produce passenger
                           data.36

                           In a communication with the CAPPS II program manager, the Army’s technical
                           representative listed security enhancements to “transportation transactions” as
                           one of four issues that the Army sought to determine whether Torch Concepts’
                           software could address.37 Because Torch Concepts’ work supported the
                           transportation security objective of another department, the CAPPS II program
                           manager’s request for JetBlue to provide data to Torch Concepts was within the
                           scope of TSA’s transportation security planning duties.




34
   49 U.S.C. §114(d).

35
   49 U.S.C. §114(f)(4).

36
   49 U.S.C. §114(d) (1), §114 (e), §114 (h)(4), and §44901(a).

37
   This reference to “transportation transactions” is present in the program scope document that was e-mailed to the CAPPS II 

program manager by the Army technical representative on June 12, 2002.



Page 24                       TSA’s Role in the Use and Dissemination of Airline Passenger Data
                            TSA’s request for JetBlue to provide PNRs to a DOD subcontractor fell within the
                            scope of TSA operations. Analysis of related documentation and discussions with
                            past and present staff support the position that TSA’s assistance to Torch Concepts
                            stemmed from an interest in supporting the national security mission of another
                            department as it applied to transportation security.

           Data Transfers Associated with CAPPS II Development

                            Eleven airline passenger data transfers took place during CAPPS II development
                            efforts. In each case, the transfers were pursued to establish the operability of
                            prototype and component systems. Four of the data transfers resulted from the
                            independent efforts of vendors associated with the CAPPS II program, while
                            seven took place as a result of TSA’s direct involvement.38 Of these seven
                            transfers, ﬁve were the result of a grant FAA awarded on TSA’s behalf, and
                            the remaining two occurred during subsequent efforts to test CAPPS II system
                            components.

                            Two TSA vendors independently obtained airline passenger data in order to prove
                            the effectiveness of RAE prototypes. Four transfers of airline passenger data
                            resulted, as follows:

                                 • 	 In June 2002, Ascent Technology, Inc. received data on Delta Air Line
                                     passengers.
                                 • 	 In mid-2002, HNC Software, Inc. received data on Continental Airlines,
                                     Frontier Airlines, and America West Airlines passengers from the
                                     SHARES reservation system.
                                 • 	 In mid-2002, HNC received data on JetBlue passengers from Acxiom.
                                 • 	 In mid-2002, HNC received data on passengers from various airlines
                                     through its E-Tickets system.

                            TSA, through the FAA, also awarded a grant to Airline Automation, Inc., to
                            furnish the RAE vendors with airline passenger data for prototype demonstrations.
                            Five transfers of airline passenger data took place as a result of this grant:

                                 • 	 In May and June 2002, Ascent received data on American Airlines
                                     passengers.
                                 • 	 In May and June 2002, HNC received data on American passengers.



38
     See Appendix E and Appendix F for summary information on these transfers.


                                TSA’s Role in the Use and Dissemination of Airline Passenger Data	     Page 25
                                  • 	 In May and June 2002, Infoglide Software Corporation received data on
                                      American passengers.
                                  • 	 In May and June 2002, Lockheed Martin Corporation received data on
                                      American passengers.
                                  • 	 In June 2002, TSA’s CAPPS II program viewed data on American
                                      passengers.

                             Later efforts to test both the ADI and RAE components of the system resulted in
                             additional passenger data sharing:

                                  • 	 In early 2003, Delta staff inadvertently provided IBM access to its
                                      passenger data.
                                  • 	 In May 2003, TSA received passenger data from Sabre Holdings to test
                                      CAPPS II.

                             Although the parties to these exchanges did not always execute appropriate
                             non-disclosure agreements in advance of data transfers, we have not found any
                             evidence of data disclosures to third parties or misuse of the data. In all but
                             four cases, we have been assured that data disseminated in association with
                             these transfers is held in a secure environment or has been destroyed. Citing
                             pending class action lawsuits, the two ﬁrms associated with the four remaining
                             transfers did not provide related information for our review. As a result, we have
                             no information on the ﬁnal disposition of the airline passenger data that HNC
                             Software and Ascent Technology independently obtained for RAE prototype
                             development efforts.

                             TSA directly received airline passenger data in only two of these CAPPS II
                             development cases.39 Although TSA received data, in neither case did it directly
                             access any records associated with these data submissions. DOT staff on the
                             CAPPS II program team did, nonetheless, view passenger data from other
                             transfers. DOT staff evaluating RAE prototype development efforts viewed
                             passenger data from one of Airline Automation, Inc.’s transmissions. In this
                             instance, DOT staff only conﬁrmed previous accounts that the data initially
                             supplied by AAI was not in a usable format. DOT staff may have also viewed
                             Delta passenger data in a presentation by one of the prototype vendors.




39
     TSA directly received airline passenger data in one additional case in connection with CAPPS improvement.


Page 26	                        TSA’s Role in the Use and Dissemination of Airline Passenger Data
                         Risk Assessment Engine Prototype Vendors

                         On March 8, 2002, the FAA issued a solicitation for white papers from software
                         developers to address solutions for the risk assessment component of CAPPS II,
                         the RAE.40 This request for white papers targeted the identiﬁcation of software
                         capable of delivering a substantial improvement in risk assessments using
                         passenger data. Among other matters, the solicitation required that applicants
                         submitting white papers “discuss and demonstrate [their] ability to link with
                         airline computer reservation systems and extract PNRs for risk assessment.”41

                         Approximately 30 ﬁrms responded with white papers. On April 1, 2002, a
                         proposal evaluation team afﬁliated with CAPPS II selected four vendors to
                         submit detailed proposals for the development and evaluation of their proposed
                         prototypes. The four ﬁrms selected were: Ascent Technology, Inc.; HNC
                         Software, Inc.; Infoglide Software Corporation; and the Lockheed Martin
                         Corporation. In May 2002, the FAA signed cooperative agreements with each
                         company on TSA’s behalf.

                         These cooperative agreements established a 60-day performance period for the
                         vendors to establish their proofs of concept.42 The agreements bound the vendors
                         to deliver risk assessment prototypes for preliminary testing. Operating with
                         government support and guidance, each vendor was asked to create a working
                         prototype for the CAPPS II team to test and evaluate. The agreements stipulated
                         that software applications developed to support CAPPS II risk assessment
                         functions meet “appropriate network security levels,” but did not place any
                         restrictions on the use or disclosure of sensitive personal information.

                         In-depth testing of the feasibility and effectiveness of these prototypes required
                         the use of authentic data corresponding to real people. This “real” data was
                         useful in RAE prototype testing for two reasons. First, such data was important to
                         assess whether the public database linkages underpinning the various prototypes
                         were viable. Passenger records on ﬁctitious individuals would not have matched
                         to information in public databases and could not establish the viability of a
                         prototype’s interface with public data. Second, it was useful to the CAPPS
                         II team to determine whether a prototype system could effectively process


40
   This solicitation appeared as a Broad Agency Announcement under the title “Announcement for Submission of White 

Papers for CAPPS II Software Evaluation.” Broad Agency Announcements articulate, in general terms, an agency’s research 

goals in a particular area and solicit qualiﬁed respondents interested in pursuing future funding awards in that area. 

41
   Ibid., 2.

42
   A proof of concept demonstrates the feasibility of an approach to solve a given problem.



                             TSA’s Role in the Use and Dissemination of Airline Passenger Data                  Page 27
          authentic records from public databases with all of their associated anomalies and
          inconsistencies. This key system capability could not be evaluated without data
          on real individuals.

          While the four vendors were initially selected in part for their ability to link with
          reservations systems and to extract PNR, their cooperative agreements with the
          FAA did not assign responsibility for obtaining passenger data. The CAPPS II
          program staff sought a uniform set of PNR data to test each of the vendors against
          a common standard. During the same period, two of the RAE prototype vendors
          – Ascent and HNC – accessed airline passenger data without TSA coordination or
          assistance.

          Ascent accessed PNRs from Delta’s reservation system in early June 2002,
          during the development of its RAE prototype. As suggested in Ascent’s RAE
          development proposal, these PNRs may have corresponded to ﬂights departing
          from Boston Logan International Airport in Massachusetts. Citing ongoing
          litigation related to its work for TSA, counsel for Ascent has advised that the ﬁrm
          cannot release any further information on the PNR data it received from Delta.

          Ascent reported to us that it “never accessed or retrieved data by individual
          identiﬁer” and that the data was stored in a “password-protected environment.”
          Ascent further said that access to the passenger data was limited to employees
          working on the ﬁrm’s RAE prototype development efforts. Some evidence
          suggests the possibility, however, that these Delta passenger records were also
          viewed by CAPPS II program staff. According to a written evaluation of Ascent’s
          prototype, the ﬁrm “demonstrated real live feed of PNR” to prototype evaluators
          from the CAPPS II team. However, we were unable to conﬁrm that the records
          used for Ascent’s demonstration were records corresponding to actual passengers,
          or that they corresponded to Delta passengers in particular.

          HNC Software obtained a more varied set of PNR data for prototype testing
          than the other vendors. In its ﬁnal report, HNC Software reported independently
          obtaining airline passenger data from at least four airlines. During the course of
          its cooperative agreement performance period, HNC received airline passenger
          data from three sources: the SHARES reservation system, Acxiom, and HNC’s
          own E-Ticket operations. HNC’s collaboration with SHARES netted it passenger
          data from Continental Airlines, Frontier Airlines, and America West Airlines
          corresponding to ﬂights between June 20 and July 3, 2002. In total, HNC
          accessed 787,081 Continental PNRs, 70,523 Frontier PNRs, and 589,515 America




Page 28      TSA’s Role in the Use and Dissemination of Airline Passenger Data
                            West PNRs through the SHARES system.43 For its part, Acxiom furnished HNC
                            Software with 2,725,352 JetBlue PNRs. These records corresponded to JetBlue
                            passengers who ﬂew between January 13 and September 5, 2002. Finally, HNC
                            E-Tickets provided HNC’s RAE prototype development team with 400,000 PNRs
                            from “various” airlines for testing purposes. According to HNC’s ﬁnal report,
                            these passenger records came from ﬂights during the June 20 to June 25, 2002,
                            time frame.

                            Because of three pending class action lawsuits on work related to TSA, the
                            current owner of HNC Software, FairIsaac, would not provide information for
                            our review. As a result, we were unable to determine to which airlines the HNC
                            E-Ticket PNRs corresponded. For the same reason, we could not determine how
                            many individual passengers were associated with the PNRs that HNC used in its
                            prototype development and testing. Questions also remain on the ﬁnal disposition
                            of this data.

                            Infoglide reports that it did not independently access PNR data. According to
                            a MITRE employee monitoring Infoglide’s progress in prototype development,
                            however, it had 13 million PNRs from WorldSpan, a ﬁrm that manages travel
                            data. Nonetheless, Infoglide reported to us that it never received real PNRs from
                            WorldSpan. Instead, according to Infoglide, the ﬁrm requested and believes
                            it received “mock” data with fabricated records on ﬁctitious passengers from
                            WorldSpan. We have not been able to conﬁrm this claim.

                            The ﬁnal cooperative agreement recipient, Lockheed Martin, maintains that it did
                            not use any independently procured airline passenger data in the development or
                            testing of its RAE prototype. For the purposes of developing and demonstrating
                            its RAE prototype, Lockheed Martin did use a small demographic data sample
                            from its partner, commercial data provider ChoicePoint. As this limited data set
                            did not include any authentic airline data, we did not address it further in our
                            review.

                            RAE prototype vendors’ independent pursuits of PNRs were not directly overseen
                            by TSA. TSA did, however, weigh the implementation of sound privacy and
                            information security practices in its appraisals of vendor performance during its
                            prototype evaluation process. One of the ﬁve technical factors used to assess the
                            quality of vendors’ prototypes was their adequacy with respect to privacy and



43
     According to HNC Software’s ﬁnal report, data from SHARES included frequent ﬂier information and seating data.


                                TSA’s Role in the Use and Dissemination of Airline Passenger Data                 Page 29
           civil rights, and data conﬁdentiality. Evaluators speciﬁcally considered whether
           the vendors’ software solutions would:

               • 	 meet legal requirements related to information privacy and civil rights;
               • 	 ensure information security;
               • 	 protect against unauthorized access to, use of, or disclosure of 

                   information; and 

               • 	 protect individual privacy rights.

           Evaluators’ appraisals on these grounds provide insight into the likely
           conﬁdentiality and security of the airline passenger data obtained by the RAE
           prototype vendors. In the ﬁnal analysis, the four prototypes’ approaches to
           privacy and conﬁdentiality were scored on two scales. Overall solutions in this
           area were rated for the basic quality of the solution and its associated risks. Three
           of the prototype solutions were rated “adequate” on the quality of their solutions
           with respect to privacy and conﬁdentiality, while one ﬁrm’s solution was rated
           “strong.” In terms of risk, one prototype was adjudged “low risk,” two “medium
           risk,” and one “high risk.” Risk ratings in this context refer to the risks TSA
           might experience in working with a given vendor to develop a full-scale RAE
           system for CAPPS II.

           Airline Automation, Inc.

           Airline Automation, Inc. (AAI) is a ﬁrm that provides data services to a number of
           domestic and international air carriers. By 2002, AAI had software applications
           running on a range of airline reservations systems and operated processes for
           several systems hosting passenger data for travel agencies.

           AAI said that following the attacks of September 11, 2001, it sought to contribute
           to improving the aviation security environment and engaged in related discussions
           with the Federal Bureau of Investigation, Customs Service, and TSA. AAI
           contact with the CAPPS II executive sponsor and program manager in March
           2002 was followed by a meeting to discuss the means by which AAI could
           support CAPPS II development.

           As a product of these discussions, AAI submitted a white paper to the
           CAPPS II program manager in early April 2002. The AAI white paper offered
           a solution for providing a data conduit to and from the RAE component. AAI
           offered to convert the tangle of disparate airline reservations data into a common
           format for the CAPPS II risk assessment engine to read. To feed information from



Page 30	      TSA’s Role in the Use and Dissemination of Airline Passenger Data
                         the RAE to the reservations systems, in turn, AAI offered to pair reservations data
                         with risk assessment information and return the “enhanced” data to its source in
                         its original format.

                         After evaluating AAI’s white paper and a subsequent proposal, the FAA awarded
                         the ﬁrm a research grant of approximately $61,000 on May 31, 2002. Covering a
                         two-month term, the research grant award itemized several deliverables including
                         the:

                             • 	 development of “secure data access consistent with fundamental security
                                 and privacy needs;”
                             • 	 certiﬁcation that AAI has legal authorization or licenses for all of the data
                                 accessed and processed by the prototype systems;
                             • 	 development of a detailed plan on security protocols and procedures to
                                 restrict access to the data and a conﬁdentiality statement;
                             • 	 provision of sample airline passenger data with a description of the
                                 databases, sources, and content; and
                             • 	 transfer of aggregated sample airline passenger data received to the RAE
                                 system component.

                         The CAPPS II program team viewed AAI’s research grant as an opportunity to
                         enlist the ﬁrm in the effort to furnish PNR data for RAE prototype testing. By the
                         date of the AAI research grant award, the FAA had signed cooperative agreements
                         with all four of the RAE prototype vendors. With AAI’s parallel grant award, the
                         ﬁrm’s aggregated sample airline passenger data could be distributed to each of the
                         four vendors. Using AAI’s data set, the CAPPS II program team could measure
                         the performance of the RAE prototypes in processing a uniform set of data.

                         After AAI’s proposal received a favorable evaluation from the FAA research
                         grants staff, the CAPPS II program manager appealed to two airlines to use
                         their passenger data for CAPPS II development. On May 15, 2002, the CAPPS
                         II program manager drafted a memorandum to Continental requesting that the
                         airline furnish TSA and its RAE prototype vendors with PNRs through TSA’s
                         grantee, AAI. Five days later, the program manager sent a similar request to
                         American soliciting PNR data through AAI.

                         In apparent anticipation of PNR data transfer, both American and Continental
                         signed non-disclosure agreements with TSA in late May 2002.44 While there is no

44
 American signed a non-disclosure agreement with TSA on May 20, 2002. Continental signed a non-disclosure agreement
with TSA eight days later on May 28, 2002.


                            TSA’s Role in the Use and Dissemination of Airline Passenger Data	              Page 31
          evidence that Continental ever provided airline passenger data in furtherance of
          its non-disclosure agreement, American authorized AAI to provide its passenger
          data to TSA for “testing CAPPS II programming” on May 22, 2002. American’s
          e-mail communicating authorization to provide passenger data for CAPPS II did
          not expressly provide for the release of data to any party other than TSA.

          On May 24, 2002, AAI sent one compact disc (CD) with an indeterminate
          quantity of American passenger data directly to each of the four RAE prototype
          vendors. AAI obtained the data on the CDs from the Sabre reservations system,
          which hosts reservations for American, among other airlines.

          AAI sent these CDs seven days before FAA awarded the ﬁrm a research grant,
          and weeks before it signed non-disclosure agreements with the recipients. Due
          to the conﬁguration of the airline passenger data on the CDs, the RAE prototype
          vendors complained that they could not effectively open, access, or interpret the
          records. At least two RAE prototype evaluators on the CAPPS II team viewed
          data from the CDs and conﬁrmed that the data supplied by AAI in this ﬁrst
          instance was not in a usable format.

          In mid-June 2002, AAI made another attempt to transmit PNRs to the RAE
          prototype vendors. The ﬁrm provided TSA and the RAE vendors with passwords
          to access airline passenger data uploaded onto a ﬁle transfer protocol (FTP)
          server. On June 17, 2002, AAI placed approximately 500,000 American
          passenger records on the server. On the same day, two of the RAE prototype
          vendors entered into non-disclosure and conﬁdentiality agreements with AAI.
          These agreements stipulated to basic data security safeguards and barred data
          disclosure to third parties without the execution of another non-disclosure
          agreement. The non-disclosure agreements also required the vendors to limit the
          internal distribution of the data to those employees with a “need to know” and
          restricted data use to analysis and data assessment work for the FAA. Finally, the
          agreements mandated the return or destruction of all related data and information
          within 10 days of the end of the vendors’ related work.

          AAI did not sign non-disclosure agreements with the two other RAE prototype
          vendors, Infoglide and HNC Software, until June 25, 2002, seven days after these
          two vendors received passwords to access AAI’s airline data. Although the non-
          disclosure agreements were not signed by AAI until June 25th, Infoglide and HNC
          Software had signed the agreements before they received access to AAI’s data.
          As signatories of non-disclosure agreements, both of these vendors were bound




Page 32      TSA’s Role in the Use and Dissemination of Airline Passenger Data
                             to maintain the conﬁdentiality of passenger data during this interim. Neither ﬁrm
                             inappropriately used or disclosed the data it may have accessed at the time.

                             Certain data elements that TSA deemed important to RAE prototype development
                             and testing were absent from the passenger information that AAI had posted
                             to the FTP site on June 17, 2002. In particular, TSA requested that additional
                             information useful in authenticating identity and data important to risk scoring
                             be included with the airline passenger data. After consultations to clarify the
                             additional information that TSA wished to have included in the data submissions
                             to the RAE prototype vendors, AAI transmitted an e-mail with sample records.
                             The e-mail, which included an attachment with approximately 10,000 American
                             PNRs, was sent to TSA and each of the four vendors on June 27, 2002. According
                             to AAI, its copy of the e-mail was automatically returned to AAI unopened,
                             because it was too large for the agency’s e-mail system to process.

                             On June 28 and 29, 2002, AAI loaded an additional 1,331,640 American PNRs to
                             the FTP server. These records corresponded to the period from
                             June 22 to June 29, 2002, and included passengers’ full name, itinerary, phone
                             number, e-mail address, and credit card number when available.

                             Passenger data provided by AAI were used differently by each of the four RAE
                             vendors. Ascent reported that it used only a subset of about 900,000 of the
                             records that it received from AAI for RAE prototype demonstration purposes.
                             The ﬁrm also said that it did not access or retrieve or match the data by individual
                             identiﬁer. With one exception, access to the records was limited to Ascent
                             employees connected to the project. During Ascent’s ﬁnal presentation to the
                             CAPPS II team in late July 2002, the ﬁrm included American passenger data in
                             sample RAE system display screens. Ascent will not disclose information about
                             the ﬁnal disposition of this data.

                             HNC applied the data it received from AAI to the adjustment of its passenger risk
                             assessment scoring scheme and RAE prototype testing. According to the vendor’s
                             ﬁnal report, it used 1,302,468 of the PNRs from AAI for these purposes. The
                             more than 1.3 million American PNRs were supplied to HNC’s partner, Acxiom,
                             and matched to demographic information in Acxiom’s commercial databases.45
                             Acxiom, in turn, transmitted the matched records back to HNC, which used the
                             passengers’ ampliﬁed demographic information to develop risk ratings. Counsel



45
     HNC’s non-disclosure agreement with AAI listed Acxiom as an approved third party, eligible for receipt of passenger data.


                                 TSA’s Role in the Use and Dissemination of Airline Passenger Data                    Page 33
          for Fair Isaac, the ﬁrm that now owns HNC, advised TSA that HNC had deleted
          the data it received from AAI.

          Infoglide used the American PNRs it received from AAI in a limited fashion. The
          company’s prototype development team evaluated the completeness of the ﬁelds
          within the data set it received and made determinations about what data elements
          it could effectively use in passenger risk assessment. Infoglide did not use data
          from AAI to test its RAE prototype. After the expiration of its cooperative
          agreement, Infoglide returned PNR data to AAI and attempted to destroy all
          copies of it. Infoglide has reported that a copy of the AAI data was later found on
          a CD. According to the ﬁrm, this data “is being maintained in a secure place.”

          Lockheed Martin used a subset of the data it received from AAI in the
          performance of its RAE testing. Lockheed Martin formatted approximately
          32,000 of the American PNRs and used them for prototype testing in an off-line
          setting. In July 2002, Lockheed Martin demonstrated its RAE prototype to TSA
          with about 50 of the formatted records. After the conclusion of its cooperative
          agreement, Lockheed Martin destroyed media containing the original American
          PNRs that it had received from AAI. Nevertheless, Lockheed Martin has retained
          copies of the approximately 32,000 PNRs it formatted. The company maintains
          that access to these records is “strictly controlled” and told us that it notiﬁed AAI
          of their status.

          CAPPS II program staff maintained that TSA did not access passenger data on
          the FTP site at any point. This account is supported by AAI, which reported
          that TSA’s password to access the FTP site was never used. At least two RAE
          prototype evaluators viewed the passenger data AAI initially supplied by CD.
          These staff members did not retain the data and only viewed it at a remote
          location. Other ofﬁcials involved in CAPPS II development viewed airline
          passenger data that was displayed in prototype demonstrations performed for
          the Deputy Secretary of Transportation in late July 2002. An audience member
          witnessing these presentations recalled that attendees were required to sign non-
          disclosure agreements.

          In late July 2002, AAI requested a one-month extension of its research grant at
          no cost to the government. As the basis for this extension, AAI stated that the
          DOD had requested that it provide Torch Concepts with airline reservations data.
          Several days later, the FAA approved AAI’s one-month extension and set the
          research grant completion date for August 29, 2002. Despite these preliminary
          efforts, according to both AAI and Torch Concepts, no airline passenger data was



Page 34      TSA’s Role in the Use and Dissemination of Airline Passenger Data
                            exchanged during the grant extension period. AAI submitted its ﬁnal project
                            report for its FAA research grant on September 30, 2002.

                            In addition to supplying passenger information to RAE prototype developers, AAI
                            made a bid to be the CAPPS II ADI contractor. As the concept behind the ADI
                            component of the CAPPS II program matured, TSA released an announcement
                            requesting contact information from potential offerors on
                            June 20, 2002. AAI provided TSA information as an interested potential offeror
                            and later submitted a proposal. After submitting its proposal, on July 18, 2002,
                            AAI received authorization from American to use the airline’s PNRs in the
                            process of ADI development and testing. TSA’s evaluation of AAI’s proposal,
                            however, did not result in an award; another proposal was selected.46 As a result,
                            AAI did not use American passenger data for ADI development and testing.

                            Airline Data Interface Testing

                            On December 5, 2002, TSA awarded IBM a contract for an ADI solution for
                            CAPPS II. The ADI’s function was to extract, process, transfer, and load
                            reservations and travel agency data and pass it to the CAPPS II risk assessment
                            component. Once the RAE processed passenger risk assessment scores, the ADI
                            was to transmit the scores to the airlines.

                            TSA’s contract with IBM included certain privacy and conﬁdentiality safeguards.
                            According to the contract, data in the ADI system was to be regarded by IBM
                            as sensitive but unclassiﬁed information and to be shared exclusively on a need-
                            to-know basis. The contract also required that IBM provide for a data system
                            meeting security and privacy needs and develop a detailed plan outlining data
                            security protocols and procedures.

                            Access to airline passenger data was an important requirement for testing the ADI.
                            Prior to the contract award, IBM and TSA engaged in discussions about how IBM
                            would be provided access rights to passenger data. An early draft of the contract
                            indicated that IBM was responsible for obtaining passenger data on its own. The
                            ﬁnal contract, however, speciﬁed that it was the government’s responsibility to
                            provide access and rights to “PNR and other related data sources and/or records
                            accessed and processed by the ADI system…”




46
     TSA’s Technical Evaluation Panel selected IBM’s proposal for ADI development on July 26, 2002.


                                TSA’s Role in the Use and Dissemination of Airline Passenger Data     Page 35
                          In December 2002, TSA and Delta ofﬁcials met to discuss the airline’s potential
                          role in providing test data. A TSA ofﬁcial reported, and Delta ofﬁcials conﬁrmed,
                          that Delta was agreeable to working with TSA if: TSA issued a security directive
                          requiring Delta to give access to PNRs; TSA and Delta entered into an MOU
                          governing use and retention of the data; and TSA’s CAPPS II development
                          contractors signed conﬁdentiality agreements regarding the data.

                          Shortly following the IBM contract award, TSA staff contemplated the use of a
                          security directive to mandate PNR data for testing, and coordinated with Delta
                          to develop a draft MOU. In late February 2003, an ofﬁcial at Delta Technology
                          mistakenly thought that TSA and Delta’s attorneys had agreed on a ﬁnal security
                          directive ordering the airline to provide passenger data. As a result, Delta opened
                          up a “real time” connection between IBM’s system and a portion of Delta’s airline
                          reservations system over a secure virtual private network. Delta estimated that
                          fewer than 1,000 Delta passenger records were transferred to IBM and Infoglide
                          between February 27 and March 3, 2003. The records corresponded to Delta
                          reservations system records that were updated or modiﬁed between those dates,
                          and were limited to records for passengers on ﬂights with an origin or destination
                          of Birmingham International Airport in Alabama.47

                          On March 3, 2003, a Delta Technology ofﬁcial instructed IBM via e-mail to delete
                          all transmitted data, including all copies and derivations of that data. The Delta
                          Technology ofﬁcial further said that no data could be shared until Delta received
                          an order from TSA compelling it to share the data and an MOU governing the use
                          of the information. On the same day, an IBM representative instructed the IBM
                          and Infoglide development teams to delete all Delta passenger data that they had
                          received. Later that day, IBM conﬁrmed that all of the data had been deleted.
                          IBM advised that it did not access or retrieve any of these passenger records by
                          individual identiﬁer. Infoglide said that it never received or accessed passenger
                          data from Delta.

                          Delta ofﬁcials said that a pre-existing non-disclosure agreement with IBM
                          protected the conﬁdentiality of the passenger data that the airline transferred in
                          February and March 2003.




47
  In the past, Delta asserted to TSA that the real passenger records that it had provided to IBM and Infoglide were mock
records. TSA reported that, as of December 2004, Delta had not revised its statement to TSA on this point.


Page 36                       TSA’s Role in the Use and Dissemination of Airline Passenger Data
                          Sabre Holdings

                          Sabre Holdings is a company with businesses that serve travelers, corporations,
                          travel agents, and travel suppliers around the world. In May 2003, the TSA
                          entity managing CAPPS II at the time, the Ofﬁce of National Risk Assessment
                          (ONRA), received approximately one million airline passenger records from
                          Sabre. However, ONRA returned them to Sabre in September 2003, never having
                          accessed or shared the data.

                          In the spring of 2003, ONRA contacted Sabre. ONRA had committed to provide
                          airline reservations and travel agency system data to its CAPPS II contractors
                          in February 2003 and its communications with Sabre were an attempt to follow
                          through on that commitment. In a May 9, 2003, letter, ONRA asked that
                          Sabre provide it with airline passenger data to complete CAPPS II program
                          testing. ONRA said that any passenger data that ONRA received would be used
                          exclusively for CAPPS II design, development, and testing purposes, and would
                          not be used for production processing or be shared outside the program.

                          In anticipation of the receipt of PNRs from Sabre, ONRA’s privacy ofﬁcer began
                          coordinating with contractors to draft a privacy policy to govern use of the data.
                          Written speciﬁcally for data from Sabre, the draft policy addressed data access,
                          use, and retention.

                          Throughout May 2003, TSA attorneys, ONRA staff, and technical experts
                          communicated regarding technical aspects of the system testing and applicability
                          of the Privacy Act. TSA’s main concern was whether individuals’ records would
                          be retrieved during testing. Based on an understanding that TSA would be testing
                          the efﬁcacy of certain aspects of the system and not making determinations about
                          individuals or retrieving records by passenger name, TSA Ofﬁce of Chief Counsel
                          (OCC) staff advised that the Privacy Act did not apply to intended data uses.
                          OCC advised, however, that record retrieval based on a person’s name rather than
                          random retrieval based on broad categories like date or ﬂight would trigger the
                          Privacy Act.

                          Sabre sent a CD containing PNR data to ONRA on May 16, 2003. This CD
                          contained approximately one million airline passenger records. It is unclear
                          to which airlines that data corresponded.48 According to Sabre representatives,


48
  Sabre Holdings representatives reported that data on the CD likely corresponded to passengers from a number of the more
than 400 airlines whose seats can be booked through Sabre.


                              TSA’s Role in the Use and Dissemination of Airline Passenger Data                   Page 37
                          ONRA did not request speciﬁc data ﬁelds. Sabre representatives said that the
                          data contained airline passengers’ ﬁrst and last names, phone numbers, home
                          addresses, and possibly dates of birth. Sabre representatives also said that the data
                          was not “active” or “current” and it was for only domestic ﬂights.

                          ONRA staff did not immediately review the information on the CD or provide
                          the CD to its contractors. Instead, ONRA’s privacy ofﬁcer locked the CD in a
                          cabinet pending resolution of all relevant privacy concerns. Sabre representatives
                          said that they did not intend to allow ONRA to use the CD for CAPPS II system
                          testing until a new CAPPS II Privacy Act system of records notice was published.
                          In June or July 2003, Sabre representatives formally notiﬁed ONRA of its intent
                          to bar use of the data until this requirement was met. An earlier CAPPS II system
                          of records notice had received substantial comment and Sabre representatives
                          requested that they have an opportunity to review the interim notice before
                          permitting use of the data for CAPPS II.

                          TSA published an Interim Final Privacy Act Notice for CAPPS II on
                          August 1, 2003.49 Ten days later, ONRA sent Sabre a letter summarizing
                          certain implications of the notice on CAPPS II system design and testing. After
                          numerous discussions with TSA about privacy and public relations, in September
                          2003, Sabre asked that ONRA return its CD. Having never accessed, reviewed, or
                          transmitted its contents, ONRA complied.

                          During the late spring and summer of 2003, ONRA also contacted WorldSpan
                          and Galileo about supplying airline passenger data for the CAPPS II effort.50 We
                          found no evidence that that data was provided to TSA or any of the CAPPS II
                          contractors by either of these companies in 2003.

          Data Transfer in CAPPS Improvement Effort

                          In May and June 2003, TSA obtained JetBlue passenger data to assist in the
                          identiﬁcation of changes to the operating passenger pre-screening system. This
                          data was used to weigh possible modiﬁcations to CAPPS rules. The data has not
                          been destroyed and remains in TSA’s custody.



49
  TSA Interim Final Notice, 68 Fed. Reg. 45265 (Aug. 1, 2003).
50
  WorldSpan and Galileo are ﬁrms that maintain and distribute electronic travel data through their GDSes. Subscribers
to these companies’ systems, including numerous travel agencies, receive travel information and booking capabilities for
airlines, hotels, car rentals, cruises, and other related travel options.


Page 38                       TSA’s Role in the Use and Dissemination of Airline Passenger Data
CAPPS Improvement

In April 2003, TSA’s Aviation Operations division formed a Selectee Checkpoint
Program Completion Team (SCPC). As part of its mission, the SCPC focused
on evaluating ways to adjust CAPPS selectee rates. This effort was conducted
independently of CAPPS II development and within a separate TSA ofﬁce.

In order to adjust selectee rates, the SCPC team identiﬁed possible changes to
existing CAPPS scoring rules. A series of rule modiﬁcations were then evaluated
against airline passenger data to assess relative impacts on selectee rates. Because
CAPPS is operated by the airlines, data to make these assessments were not
readily available. Accordingly, the SCPC team had to solicit the cooperation of
airlines to evaluate the likely impact of different CAPPS rule adjustments. In
May 2003, the SCPC team leader enlisted the support of American and JetBlue
for this purpose.

The SCPC shared the details of possible changes to the CAPPS rules with
American. After testing the proposed modiﬁcation to the CAPPS rules against
its passenger data, American was able to furnish the SCPC with information on
how these changes would affect its passenger selectee rates. On the other hand,
according to the SCPC team leader, JetBlue lacked the resources to assess the
impact of proposed CAPPS changes. Instead, the airline provided passenger data
to TSA’s SCPC for analysis.

At TSA’s request, starting in May 2003, JetBlue sent nine e-mail messages to
members of TSA’s SCPC with data on the air carrier’s passengers. The e-mails
included attachments with passenger data presented in spreadsheets. These
spreadsheets were not password protected and did not restrict access by any other
means.

The airline provided data for thirty ﬂights with more than 3,900 passengers.
Most records included ﬁelds for ﬁrst and last name, PNR number, booking date,
ﬂight number, ﬂight date, ﬂight origin and destination, and home phone number.
Some transmissions included passengers’ e-mail addresses and indicated whether
passengers had been selected for further screening. TSA had not requested
passenger phone numbers or e-mail addresses for its analysis.

TSA staff used data from a subset of the JetBlue ﬂights to model the prospective
impact of CAPPS rules variations under consideration. This model was later
presented to TSA leadership to assist in determining which CAPPS changes to



   TSA’s Role in the Use and Dissemination of Airline Passenger Data        Page 39
                          adopt. In a memorandum to TSA leadership, the SCPC team leader reported that
                          these data were saved on two computer hard drives, and were accessible by only
                          two employees. Data were not accessible via TSA’s network.

                          TSA did not discuss passengers’ data privacy, conﬁdentiality, or security by
                          TSA in advance of the transfer. Neither TSA nor individual staff working on the
                          project signed conﬁdentiality or non-disclosure agreements with JetBlue pursuant
                          to the data exchange. Despite this, TSA did not release or transfer the SCPC
                          passenger information to another party. Furthermore, TSA states that it did not
                          access or retrieve any data on any passengers by individual identiﬁer.51 TSA told
                          us that no other airlines transferred passenger data to TSA for this project.

                          The JetBlue passenger data received by the SCPC has not been returned or
                          destroyed due to pending FOIA requests. At this time, TSA has not determined
                          whether the passenger data is responsive to the FOIA requests.52

          Conclusions

                          Although we found no evidence of harm to individual privacy, TSA could
                          have taken more steps to protect privacy. TSA did not consistently apply
                          privacy protections in the course of its involvement in airline passenger data
                          transfers. This inconsistency pertained to TSA’s efforts in acquisitions, contract
                          enforcement, and internal practice.

                          Although TSA and the FAA, acting on TSA’s behalf, included language guarding
                          data security and conﬁdentiality of personal information in some acquisition
                          instruments used in CAPPS II development, they did not do so in all cases. The
                          May 2002 research grant to AAI and the December 2003 contract with IBM
                          both included text requiring the funding recipients to implement and report on
                          data security and data privacy protection efforts. The May 2002 cooperative
                          agreements signed with the four RAE prototype vendors, however, did not contain
                          provisions limiting the use or disclosure of personal information.

                          TSA did not completely monitor or enforce adherence to good privacy practices
                          among the parties involved in passenger data transfers. CAPPS II management
                          was not acquainted with the details of related airline passenger data exchanges


51
   Department of Homeland Security, Transportation Security Administration, Ofﬁce of Chief Counsel, Report on Passenger 

Name Record Data Exchanges Involving Projects to Improve Passenger Screening, August 18, 2004, p. 36.

52
   Ibid., p. 36.



Page 40                      TSA’s Role in the Use and Dissemination of Airline Passenger Data
and, therefore, could not determine whether these transfers were appropriate. 

Although TSA evaluators of the RAE prototype vendors assessed their 

performance in the area of data security and privacy protection, evaluators did not 

track the vendors’ independent efforts to obtain passenger data. 


CAPPS II program staff facilitated the transfer of JetBlue passenger data to Torch 

Concepts, but did not keep tabs on the resulting data exchange. 

CAPPS II program staff did not follow up on a request for copies of relevant non
-
disclosure agreements, nor did TSA request an accounting of Torch Concepts’

utilization or disposition of the passenger data that it received. 


This pattern also characterized TSA’s oversight of the RAE prototype vendors. 

TSA did not carefully track vendors’ independent progress in obtaining airline 

passenger data to develop, test, and demonstrate their prototype systems. In 

addition, the agency neglected to inquire whether airline passenger data used by 

the vendors had been returned or destroyed. 


In the case of the data transfer to support CAPPS improvement efforts, TSA

staff did not follow accepted privacy procedures in obtaining passenger data 

for internal use. First, TSA did not obtain non-disclosure or conﬁdentiality 

agreements with JetBlue before receiving airline passenger data in May 2003. 

These agreements could have provided a declaration of data usage and set 

important restrictions on disclosure. Second, TSA did not ensure that data 

security measures were in place during the data transfer. As a result, passenger 

data was transmitted to TSA in unencrypted ﬁles without password protection. 


Despite TSA’s intermittent lack of sound privacy practices enforcement among 

its partners and its own staff, only one inappropriate public disclosure of personal 

information apparently occurred. Torch Concepts’ inadvertent disclosure of 

sensitive information associated with a single JetBlue passenger occurred in 

breach of its conﬁdentiality agreement with the data provider, Acxiom. 


Finally, airline passenger records were not maintained in such a way as to have 

required TSA to publish a Privacy Act system of records notice. Neither TSA

nor its contractors accessed or retrieved airline passenger records by individually 

identifying particular. As a result, none of the passenger data received or 

maintained by TSA or its proxies may be considered a system of records under the 

Privacy Act.





   TSA’s Role in the Use and Dissemination of Airline Passenger Data          Page 41
               We recommend that the Assistant Secretary for Transportation Security, in
               coordination with the Chief Privacy Ofﬁcer, as appropriate:

               Recommendation 1: Develop clear protocols for obtaining airline passenger data
               and facilitating its exchange among other parties.

               Recommendation 2: Ensure privacy and personal data protections are written
               into acquisition documents where performance may involve the collection,
               maintenance, use, or dissemination of individually identiﬁable data.

               Recommendation 3: Require ﬁnal reporting for acquisitions with intensive
               data analysis or processing components that addresses data receipt, processing,
               distribution, utilization, and disposition, as well as attention to data security and
               privacy.

               Recommendation 4: Require entities performing work for TSA to report to
               the agency on how they are addressing data security, privacy protections, and
               conﬁdentiality.



Information Disclosure Regarding Airline Passenger Data Transfers
               Statements TSA ofﬁcials made about the agency’s role in passenger data sharing
               in response to FOIA requests, U.S. Senate testimony, and media inquiries were at
               times incorrect. The fact that accurate information about data transfers was not
               immediately disclosed to the public fueled perceptions that TSA was withholding
               information about its use of airline passenger data.

               FOIA Requests

               In September 2003, TSA received hundreds of electronic and paper FOIA requests
               soliciting all agency records regarding the accessing or use of JetBlue passenger
               data that were indexed or maintained under the requester’s name or other
               identifying information in connection with various security systems. These FOIA
               requests were prepared using a template available on the American Civil Liberties
               Union (ACLU) web site.

               In coordination with the TSA FOIA ofﬁce, the agency’s OCC contacted ONRA
               and asked it to search for relevant documents. On September 25, 2003, ONRA



Page 42           TSA’s Role in the Use and Dissemination of Airline Passenger Data
                          replied that it did not have JetBlue records.53 On that same day, OCC staff wrote
                          to the CPO that ONRA had no responsive records. Replying to the OCC’s e-
                          mail, the CPO wrote, “Is there elsewhere in TSA that we should search?” OCC
                          responded, “There is no other ofﬁce in TSA that would get PNR data except
                          ONRA.” Nonetheless, OCC also consulted with staff from the agency’s CIO to
                          determine whether they had any JetBlue passenger data.

                          When ONRA and CIO staff reported that neither had records responsive to the
                          FOIA requests, TSA drafted a response, which is still posted on the agency’s
                          FOIA reading room web site. The response asserts that TSA does not have
                          JetBlue Airways passenger data; that response remained on the web site for over a
                          year.

                          It is standard practice to assign FOIA requests to numerous ofﬁces within the
                          agency to cast the widest net possible for document collection. We interviewed
                          FOIA ofﬁce staff on two occasions and reviewed their methods for assembling
                          documents responsive to FOIA requests. Procedures pertaining to document
                          collection for FOIA requests require FOIA ofﬁce staff to ask TSA entities that
                          might reasonably be expected to possess responsive documents to search their
                          records. Searching for records responsive to FOIA requests is an agency-wide
                          responsibility. To conduct thorough searches for documents, FOIA ofﬁce staff
                          often require input from other agency ofﬁces with broad based knowledge of TSA
                          operations. Although TSA’s Aviation Operations (AVOPS) was later found to
                          possess JetBlue records, OCC and the FOIA ofﬁce never asked AVOPS to search
                          its ﬁles for documents responsive to these FOIA requests.

                          In September 2003, the ACLU and Electronic Privacy Information Center (EPIC)
                          sent FOIA requests to TSA for, among other items, records “regarding access and/
                          or use of JetBlue Airways … passenger data in connection with various security
                          systems,” and “documents or materials related to JetBlue Airways Corporation.”
                          TSA’s FOIA ofﬁce asked AVOPS to search for responsive records to these FOIA
                          requests in late September, before reporting on the agency web site that TSA had
                          no JetBlue Airways passenger data. Documents indicate, however, that TSA
                          posted the statement that it had no JetBlue Airways passenger data before AVOPS
                          responded to the ACLU and EPIC FOIA requests. When AVOPS reported to
                          the FOIA ofﬁce on these requests, it stated that it had “no records relative to
                          the request[s].” The JetBlue passenger records in AVOPS possession were not

53
  In two separate visits to ONRA, we reviewed records related to PNR data and documentation of attempts to obtain PNR
data. We found no evidence of JetBlue or any other airline PNR data at ONRA, except those limited staff records that had
been reported on by the GAO.

                              TSA’s Role in the Use and Dissemination of Airline Passenger Data                    Page 43
                          reported to FOIA staff until May 2004.54 When AVOPS provided the JetBlue
                          passenger records to the FOIA ofﬁce, staff there took precautions not to copy or
                          distribute them and locked them in the ofﬁce document room, where they remain.

                          In April 2004, Wired News and ACLU sent additional FOIA requests to TSA
                          asking broadly for any records related to the sharing or acquisition of airline
                          passenger records. Along with the September requests from the ACLU and
                          EPIC, these FOIA requests were transferred to DHS’ departmental disclosure
                          ofﬁcer who, as of November 2004, was processing documents for release to the
                          requesters.

                          We recommend that the Assistant Secretary for Transportation Security, in
                          coordination with the Chief Privacy Ofﬁcer, as appropriate:

                          Recommendation 5: Re-evaluate TSA’s response to FOIA requesters who
                          solicited information in September 2003 regarding their airline passenger data.
                          Such a reevaluation should, at minimum, involve the removal or amendment of
                          the letter posted on TSA’s FOIA reading room web site to reﬂect the fact that TSA
                          is in possession of JetBlue passenger data.

                          U.S. Senate Testimony

                          TSA employees assisted in preparing responses to a pre-hearing questionnaire for
                          the DHS Deputy Secretary’s November 18, 2003, conﬁrmation hearing before
                          the U.S. Senate Committee on Governmental Affairs.55 One question sought
                          information about TSA’s role in the transfer of JetBlue passenger information
                          to Torch Concepts. The November 18, 2003, response to the question stated
                          that TSA provided assistance “…only in the form of an introduction for DOD to
                          JetBlue Airlines [sic].”

                          In late November or early December 2003, TSA staff located a July 30, 2002,
                          memorandum from the CAPPS II program manager to JetBlue’s security director
                          requesting that the airline provide PNR data to Torch Concepts. Because this
                          memo contradicted the Deputy Secretary’s November 18, 2003, response to the
                          Committee on Governmental Affairs, on February 23, 2004, the Deputy Secretary
                          sent a letter to the Chairman of the Committee amending his prior statement. His


54
 These passenger records related to the effort to improve the existing CAPPS program. 

55
 At the start of the 109th session of Congress, the U.S. Senate Committee on Governmental Affairs became the Senate 

Committee on Homeland Security and Governmental Affairs.



Page 44                       TSA’s Role in the Use and Dissemination of Airline Passenger Data
                         statement was amended to read, “In a July 30, 2002 memorandum, TSA requested
                         that JetBlue provide archived passenger data to the DOD.” TSA staff did not
                         provide a clear explanation as to why this memorandum was not brought to the
                         Deputy Secretary’s attention before the November 18, 2003, hearing.

                         In another conﬁrmation pre-hearing question, the U.S. Senate Committee on
                         Governmental Affairs asked whether contractors working on CAPPS II had
                         used any real world data for testing purposes. The Deputy Secretary’s response
                         was that “TSA has not used any PNR data to test any of the functions of
                         CAPPS II. TSA is using certain information provided by volunteers, many are
                         DHS employees,” including senior DHS ofﬁcials.56 TSA did use volunteered
                         information to test CAPPS II; however, PNR data also was used to test some of
                         the system’s functions.57

                         Government Accountability Ofﬁce and Media Reports

                         In February 2004 testimony before Congress on CAPPS II implementation
                         challenges, the Government Accountability Ofﬁce (GAO) said, “…TSA has only
                         used 32 simulated passenger records – created by TSA from the itineraries of its
                         employees and contractor staff who volunteered to provide the data – to conduct
                         [passenger risk assessment] testing.”58 On this point, Wired News questioned
                         whether TSA intentionally withheld information from GAO.59 After reviewing
                         GAO documents relating to the above statement in its testimony and interviewing
                         TSA employees, we have found no evidence that TSA provided misleading or
                         inaccurate information to the GAO.

                         As the basis for the above statement in its CAPPS II testimony, GAO relied on
                         interviews with ONRA staff. Records of meetings between GAO and ONRA staff
                         show that GAO speciﬁcally asked about ONRA’s access to airline passenger data.
                         GAO’s questions concentrated on stress tests and systemwide testing for CAPPS
                         II and not the testing of system prototypes or components. Furthermore, when
                         asked about ONRA’s relationship with Delta and travel data systems, ONRA staff



56
   Pre-hearing questionnaire for the nomination of the DHS Deputy Secretary, November 18, 2003, hearing to the Senate 

Committee on Governmental Affairs, question number 64.

57
   IBM and Infoglide received PNR data from Delta to test CAPPS II components. In addition, RAE prototype vendors used 

PNR data on numerous occasions to demonstrate and test their prototypes.

58
   Government Accountability Ofﬁce, Computer-Assisted Passenger Prescreening System Faces Signiﬁcant Implementation 

Challenges, GAO-04-385, February 2004, p. 17.

59
   “More False Information from TSA,” Wired News, June 23, 2004.



                             TSA’s Role in the Use and Dissemination of Airline Passenger Data                 Page 45
                            told GAO that Delta had supplied data for testing the CAPPS II ADI component
                            and that ONRA was in discussions with Sabre about using its data for testing.

                            GAO’s report about CAPPS II testing speciﬁcally referred to demonstrating the
                            full CAPPS II system. Although partial system testing occurred for a short time
                            in February 2003, Delta data and prototype testing occurred in mid-2002. Full
                            CAPPS II system testing never occurred because airline passenger data was not
                            available.

                            In September 2003, a TSA spokesman told Wired News that CAPPS II had not
                            been tested on any historical travel data and that only fake passenger data had
                            been used.60 Wired News also asked a separate TSA spokesman in September
                            2003 whether TSA’s four contractors had used real passenger records to test and
                            develop their systems. According to the article, the spokesman denied that four
                            contractors had used real passenger records and said TSA had only used “dummy
                            data.”61

                            The responses that the TSA spokesmen provided to Wired News were not
                            accurate. CAPPS II prototypes and components were tested using authentic
                            passenger data on eleven occasions. Moreover, eight of the cases involved the
                            CAPPS II program’s RAE prototype vendors.

                            Disclosure of Information to the DHS Privacy Ofﬁce

                            The CPO expressed concern that TSA had not been fully forthcoming in providing
                            information requested from the agency for the February 20, 2004, Report to the
                            Public on Events Surrounding JetBlue Data Transfer. We reviewed eight written
                            requests for information that the CPO sent TSA prior to February 20, 2004, and
                            reviewed TSA’s responses. We concluded that TSA was promptly responsive
                            to most of the CPO’s requests. However, in one case, TSA was not promptly
                            forthcoming with the CPO.

                            We reviewed requests the CPO sent to the following ofﬁces: TSA Public
                            Affairs; ONRA; the assistant administrator for Policy; the administrator, deputy
                            administrator and chief of staff; the FOIA ofﬁce; and the Ofﬁce of Chief Counsel
                            (OCC). The CPO’s requests for information were for documents speciﬁcally
                            related to the transfer of JetBlue PNRs to DOD subcontractor Torch Concepts. In


60
     “JetBlue Data to Fuel CAPPS Test,” Wired News, September 16, 2003.
61
     “More False Information from TSA,” Wired News, June 23, 2004.


Page 46                        TSA’s Role in the Use and Dissemination of Airline Passenger Data
                             requesting information, the CPO expressed a sense of urgency; however, only one
                             of the eight requests that we reviewed contained a speciﬁc response deadline.62

                             In one case, TSA was not promptly forthcoming in providing documents to
                             the CPO. In November and December 2003, TSA sought information from its
                             employees to respond to a letter that the Ranking Member of the U.S. Senate
                             Judiciary Committee had sent to the DHS Secretary inquiring about TSA’s role
                             in the JetBlue data transfer to Torch Concepts.63 TSA forwarded a draft response
                             and eleven supporting documents to DHS for review in January 2004. Although
                             all of these materials were germane to the CPO’s inquiry, a list of the supporting
                             documents was not provided by TSA to the CPO until February 17, 2004. The
                             CPO said that receipt of a list of these documents six weeks after they had been
                             compiled, and three days before publication of the DHS Privacy Ofﬁce report,
                             gave the impression that TSA had withheld the documents.

                             The TSA employee who drafted the response letter and compiled the supporting
                             documents said that, at the time, she believed that the documents in question
                             had been included in the materials that TSA had provided the CPO on another
                             occasion. The DHS Privacy Ofﬁce had received these materials earlier, but the
                             documents had not been furnished by TSA. Instead, the DHS Privacy Ofﬁce
                             received the documents on February 13, 2004, from headquarters staff at DHS’
                             Border and Transportation Security directorate. Had TSA provided these
                             materials to the DHS Privacy Ofﬁce when they became available, the CPO would
                             have had substantially more time to review them before the DHS Privacy Ofﬁce’s
                             report was issued. OCC staff reported, however, that TSA did not know when the
                             DHS Privacy Ofﬁce intended to publish its report.

                             Neither TSA nor the DHS Privacy Ofﬁce had a system to track or locate
                             documents provided in response to requests of this nature. Since TSA had
                             provided thousands of pages of documents to the CPO as they became available,
                             it is likely that the documents associated with the congressional response letter
                             were overlooked.

                             In addition to these documented requests, the CPO said that she asked TSA
                             for information about other airline data transfers before her ofﬁce’s report was
                             released in February 2004. The CPO reports that TSA responded that the JetBlue
                             matter was unique and suggested that TSA did not have a role in any other airline
                             data transfers. We have been unable to ﬁnd documentation that unequivocally

62
     See Appendix I for additional details about the CPO’s eight requests to TSA.
63
     The letter from Senator Patrick Leahy was dated October 10, 2003.


                                 TSA’s Role in the Use and Dissemination of Airline Passenger Data       Page 47
          corroborates this account and TSA staff we interviewed do not recall a broad
          request for information about airline passenger data transfers during that period.
          TSA responded to a March 2004 request from the CPO for information about
          other airline passenger data transfers the following month, after gathering relevant
          documents.

          Conclusions

          These cases illustrate weaknesses and a lack of reliability in the way that TSA
          processes requests for information. Although we found no evidence of deliberate
          deception, the evidence of faulty processes is substantial.

          At least three factors contributed to TSA’s shortcomings in its disclosure of
          information on its role in the transfer of airline passenger data. First, management
          of the CAPPS II program team had shifted three times since its formation. These
          management changes included signiﬁcant staff turnover. This, in turn, hampered
          TSA’s ability to gather and interpret information and documents related to early
          program developments quickly.

          Second, TSA staff who gathered information for requesters were sometimes
          provided with inaccurate or misleading information. Relying on his memory of
          events, the former CAPPS II program manager who wrote JetBlue to request that
          the airline provide data to Torch Concepts initially said he had only introduced
          Torch Concepts to JetBlue. In another case, until recently, Delta asserted that
          the real passenger records that it had provided to IBM and Infoglide were simply
          mock records.

          Third, TSA did not have systems in place to support effective searches for
          materials responsive to document requests. In the case of a FOIA request, TSA
          did not solicit information from all relevant components. In another case, TSA
          staff were unable to determine what had been provided to the CPO, so important
          documents were not forwarded in a timely manner.

          TSA’s inadequate performance in disclosing information on its role in the transfer
          of airline passenger data indicates a need for closer tracking of requests and
          greater internal accountability for responses. Accordingly, we recommend that
          the Assistant Secretary for Transportation Security:




Page 48      TSA’s Role in the Use and Dissemination of Airline Passenger Data
                         Recommendation 6: Adopt procedures for responding to external and intra-
                         departmental requests for information that help guarantee a comprehensive,
                         timely, and reliable response. At minimum, these procedures should include the:

                             •	   Designation of a primary point of contact and responsible staff person;
                             •	   Documentation of the scope of the search conducted for each request;
                             •	   Listing of materials provided to the requester; and
                             •	   Issuance of a formal written response indicating that the search for
                                  related documents and information has concluded.


TSA Privacy Focus
                         Personal privacy issues have commanded attention within TSA since its inception
                         in November 2001. In the spring of 2002, attorneys with the OCC prepared and
                         presented analyses of legal issues pertaining to the agency’s collection and use
                         of data. Early legal analysis detailed, for example, the statutory basis for TSA’s
                         authority to collect airline passenger data. Contemporary OCC guidance also
                         addressed questions about the statutory rules regarding the use of particular types
                         of personal information. OCC staff monitored CAPPS II developments through
                         regular attendance of weekly program meetings and consulted with program staff.

                         Early CAPPS II development work centered on system conceptualization and the
                         identiﬁcation of technical solutions to implement the system. As the planning
                         and basic technical feasibility work drew to a close, CAPPS II program staff
                         drafted and published an initial system of records notice for the program in
                         January 2003. This ﬁrst broad-scale announcement of the general outline of the
                         program was performed in concert with outreach efforts to a wide-ranging group
                         of stakeholders. In January and March 2003, TSA convened stakeholders from
                         across government and the private and nonproﬁt sectors to discuss CAPPS II.64
                         The meetings were called to gather input on how TSA could best address privacy
                         concerns in structuring CAPPS II.

                         Over the past twenty months, a number of important changes have expanded
                         the prominence of privacy concerns in the TSA’s operations. In March 2003,
                         TSA was incorporated into DHS. With a new department came a new privacy
                         oversight system. Enabling legislation for the department called for hiring a chief
                         privacy ofﬁcer with authority to rule on internal privacy procedures and report

64
  Attendees included senior executives from the ACLU, American Conservative Union, Center for Democracy and
Technology, Eagle Forum, and Potomac Institute for Policy Studies.


                            TSA’s Role in the Use and Dissemination of Airline Passenger Data	                Page 49
                           to Congress.65 DHS’ chief privacy ofﬁcer, appointed on April 16, 2003, was an
                           active agent in privacy discussions relating to CAPPS II from mid-2003 forward.

                           Provisions of the E-Government Act requiring agencies to perform PIAs under
                           a number of circumstances became effective on April 17, 2003. Under most
                           circumstances, these PIAs are publicly available and offer detailed information
                           on all new and modiﬁed systems maintained by federal agencies that include
                           information on more than ten individuals. Systems with data on foreign nationals
                           and federal employees are exempt from this requirement.

                           In this new legal and organizational context, TSA released a second CAPPS
                           II notice. After reviewing public comments on its initial notice, on August 1,
                           2003, TSA published an Interim Final Notice on CAPPS II.66 Consistent with
                           an operating environment increasingly sensitive to public concerns regarding
                           privacy, this second notice provided substantially more detail on system plans and
                           design.

                           In March 2004, TSA unveiled a plan to support good privacy practice within the
                           organization. The TSA Assistant Secretary afﬁrmed the agency’s commitment to
                           privacy by declaring that, “in carrying out the TSA mission to secure our nation’s
                           transportation systems, we must respect and protect the privacy rights of all
                           individuals we serve.” This ﬁve-point plan included the:

                                • 	 Implementation of ongoing educational and training programs for all
                                    employees;
                                • 	 Appointment of an external privacy advisory board;
                                • 	 Dissemination of a privacy statement speciﬁc to the tasks and
                                    circumstances at TSA;
                                • 	 Enforcement of speciﬁc internal policies and controls on use of data and
                                    private information; and
                                • 	 Hiring of a privacy ofﬁcer to oversee compliance and to report on agency
                                    performance.

                           TSA has successfully implemented three of the ﬁve privacy plan elements. TSA
                           issued a privacy statement and hired a privacy ofﬁcer in March 2004, and is
                           engaged in the development and delivery of staff training programs. On March

65
   DHS’ chief privacy ofﬁcer is responsible for department-wide compliance with the Privacy Act and for evaluating
legislative and regulatory proposals involving collection, use, and disclosure of personal information by the federal
government.
66
   68 Fed. Reg. 45265 (Aug. 1, 2003).


Page 50	                       TSA’s Role in the Use and Dissemination of Airline Passenger Data
                            8-12, 2004, TSA conducted a privacy education week with a series of programs
                            emphasizing the roles and responsibilities of employees in protecting individual
                            privacy. Additionally, TSA has mandated that all staff members participate in
                            multimedia training on protection of personal privacy rights. According to TSA,
                            98% of its headquarters staff and 81% of ﬁeld employees had completed a Privacy
                            Act training program as of early August 2004.67

                            Before testing its new passenger pre-screening system, Secure Flight, TSA opened
                            information on program testing to public comment. On September 24, 2004, TSA
                            published in the Federal Register a Secure Flight Privacy Act system of records
                            notice, a PIA, and a proposed order to airlines to provide PNR data for system
                            testing.68 These documents describe the data to be used in system testing, the
                            purpose of the testing, and the types of testing that will occur. They also articulate
                            TSA’s commitment to implement data security and privacy protections during the
                            testing process and provide for strict oversight and appropriate personnel training.

                            From the prototype development stage of CAPPS II in mid-2002 to the present,
                            TSA has evolved with respect to its approach to privacy. This transition is still
                            under way as the agency weighs the sometimes competing values of security and
                            privacy in the execution of its critical aviation security function.

                            We recommend that the Assistant Secretary for Transportation Security, in
                            coordination with the Chief Privacy Ofﬁcer, as appropriate:

                            Recommendation 7: Appoint a TSA external privacy advisory board,
                            as speciﬁed in TSA’s ﬁve-point plan, to review all agency privacy impact
                            assessments, and, to provide consultation regarding the scope and methods of
                            TSA supported data analysis and research involving individually identiﬁable data.

                            Recommendation 8: Develop procedures that will provide a clear process to:
                            (1) approve the agency’s role in data sharing that involves individually identiﬁable
                            information; and, (2) identify a particular employee responsible for monitoring
                            the data security, usage, and ﬁnal disposition of each transfer of individually
                            identiﬁable information in which TSA becomes involved.




67
     TSA has approximately 53,000 employees.

68
     69 Fed. Reg. 57342-57348 and 57352-57355 (Sept. 24, 2004).



                                TSA’s Role in the Use and Dissemination of Airline Passenger Data         Page 51
Appendix A
Management Comments




Page 52               TSA’s Role in the Use and Dissemination of Airline Passenger Data
                                                                Appendix A
                                                                Management Comments




TSA’s Role in the Use and Dissemination of Airline Passenger Data             Page 53

Appendix A
Management Comments




Page 54               TSA’s Role in the Use and Dissemination of Airline Passenger Data
                                                                Appendix A
                                                                Management Comments




TSA’s Role in the Use and Dissemination of Airline Passenger Data             Page 55

Appendix A
Management Comments




Page 56               TSA’s Role in the Use and Dissemination of Airline Passenger Data
                                                                Appendix A
                                                                Management Comments




TSA’s Role in the Use and Dissemination of Airline Passenger Data             Page 57

Appendix A
Management Comments




Page 58               TSA’s Role in the Use and Dissemination of Airline Passenger Data
                                            Appendix B
                                            OIG Evaluation of Management Comments



We evaluated TSA’s written comments to the draft report and made changes, as
appropriate, to the ﬁnal version. Below is a summary of our analysis of TSA’s
response to the recommendations contained in the draft report.

Recommendation 1: Develop clear protocols for obtaining airline passenger data
and facilitating its exchange among other parties.

TSA Response: TSA concurs with this recommendation and writes that it has
taken steps to address it. Citing its efforts related to the Secure Flight passenger
pre-screening system as evidence of progress in this area, TSA points to its
published PIA and Privacy Act system of records notice that indicate how test
data is to be transferred and outline safeguards TSA will use to protect this data
from unauthorized use or disclosure. In its remarks, TSA also highlights plans
to prepare a Concept of Operations document stipulating how PNR data is to
be obtained for Secure Flight, as well as related Operational Procedures. In
addition, TSA discusses plans to execute MOUs that clearly deﬁne roles and
responsibilities with other agencies and departments that will handle data in
the development and implementation of Secure Flight. Importantly, TSA also
reports that it has instituted internal procedures covering the receipt, handling and
transmission of data sent to the agency.

OIG Evaluation: TSA has pursued a more formalized process for obtaining
and sharing data in its efforts regarding the Secure Flight system than in the
past. To determine whether TSA has developed clear protocols for obtaining and
exchanging airline passenger data, however, we will need to review the agency’s
related internal procedures. Recommendation 1 is resolved – open.

Recommendation 2: Ensure privacy and personal data protections are written
into acquisition documents where performance may involve the collection,
maintenance, use, or dissemination of individually identiﬁable data.

TSA Response: TSA concurs with this recommendation. TSA states that it
now includes clauses on privacy and personal data protection in all contracts and
agreements in which privacy and personal data are involved.

OIG Evaluation: The incorporation of clauses on privacy and personal
data protection into applicable contracts and agreements is responsive to this
recommendation. Recommendation 2 is closed.




   TSA’s Role in the Use and Dissemination of Airline Passenger Data          Page 59
Appendix B
OIG Evaluation of Management Comments



                   Recommendation 3: Require ﬁnal reporting for acquisitions with intensive
                   data analysis or processing components that addresses data receipt, processing,
                   distribution, utilization, and disposition, as well as attention to data security and
                   privacy.

                   TSA Response: TSA concurs with this recommendation and has committed to
                   ensure that ﬁnal reporting of this kind occurs. In addition, TSA is considering
                   revisions to standard acquisitions language to require periodic and ﬁnal reporting
                   for data-intensive contracts.

                   OIG Evaluation: TSA’s commitment to ensure ﬁnal reporting on data receipt,
                   processing, utilization, and disposition, as well as data security and privacy in
                   acquisitions is promising. The revision of standard contract language to require
                   periodic and ﬁnal reporting for data-intensive contracts will be fully responsive to
                   this recommendation. Recommendation 3 is resolved – open.

                   Recommendation 4: Require entities performing work for TSA to report to
                   the agency on how they are addressing data security, privacy protections, and
                   conﬁdentiality.

                   TSA Response: TSA concurs with this recommendation and has taken steps to
                   implement it. TSA states that, for agency acquisitions, it will require compliance
                   with data security, privacy protection, and conﬁdentiality policies, procedures, and
                   reporting set forth by the DHS and TSA Privacy Ofﬁces. TSA also expresses its
                   intent to evaluate offerors’ data security and privacy protections in the pre-award
                   phase of data-intensive contracts.

                   OIG Evaluation: TSA’s commitment to evaluate offerors’ plans for
                   ensuring data security and privacy protection is partially responsive to this
                   recommendation. Coupled with this, the planned revision of standard contract
                   language described in the agency’s response to the previous recommendation
                   would be fully responsive to this one. Recommendation 4 is resolved – open.

                   Recommendation 5: Re-evaluate TSA’s response to FOIA requesters who
                   solicited information in September 2003 regarding their airline passenger data.
                   Such a reevaluation should, at minimum, involve the removal or amendment of
                   the letter posted on TSA’s FOIA reading room web site to reﬂect the fact that TSA
                   is in possession of JetBlue passenger data.




Page 60               TSA’s Role in the Use and Dissemination of Airline Passenger Data
                                            Appendix B
                                            OIG Evaluation of Management Comments



TSA Response: TSA believes that it fully complied with its obligation to conduct
a reasonable search for records responsive to FOIA requests submitted using a
template on the ACLU web site. TSA also reports that it has removed the letter
asserting that the agency had no JetBlue passenger data from its FOIA reading
room website.

OIG Evaluation: We modiﬁed this recommendation in response to comments
from TSA and the DHS Privacy Ofﬁce. TSA’s removal of the letter in
question from its FOIA reading room web site is an acceptable response to this
recommendation in its current form. Recommendation 5 is closed.

Recommendation 6: Adopt procedures for responding to external and intra-
departmental requests for information that help guarantee a comprehensive,
timely, and reliable response. At minimum, these procedures should include the:

    •	   Designation of a primary point of contact and responsible staff person;
    •	   Documentation of the scope of the search conducted for each request;
    •	   Listing of materials provided to the requester; and
    •	   Issuance of a formal written response indicating that the search for
         related documents and information has concluded.

TSA Response: TSA concurs with our recommendation to adopt procedures
for responding to external and intra-departmental requests for information. For
privacy-related information requests originating from the DHS Privacy Ofﬁce, the
TSA privacy ofﬁcer is the now the principal point of contact. The TSA privacy
ofﬁcer is now responsible for coordinating and tracking responses to information
requests from the DHS Privacy Ofﬁce.

OIG Evaluation: TSA’s designation of its privacy ofﬁcer as the principal point
of contact for requests from the DHS Privacy Ofﬁce is partially responsive to
this recommendation. The scope of our recommendation extends beyond TSA’s
interaction with the DHS Privacy Ofﬁce. Our recommendation is intended to
ensure that TSA has a system in place to respond to requests for information and
materials not covered under current guidelines or procedures. Before closing
this recommendation, we must conﬁrm that TSA’s procedures for responding to
requests from organizations other than the DHS Privacy Ofﬁce includes all of
the elements described in the recommendation. Recommendation 6 is resolved
– open.




   TSA’s Role in the Use and Dissemination of Airline Passenger Data	      Page 61
Appendix B
OIG Evaluation of Management Comments



                   Recommendation 7: Appoint a TSA external privacy advisory board,
                   as speciﬁed in TSA’s ﬁve-point plan, to review all agency privacy impact
                   assessments, and, to provide consultation regarding the scope and methods of
                   TSA supported data analysis and research involving individually identiﬁable data.

                   TSA Response: TSA acknowledges the importance of effective oversight
                   and describes planned and existing privacy oversight mechanisms. TSA’s
                   privacy ofﬁcer provides guidance on the gathering and utilization of personally
                   identiﬁable information, and coordinates and approves PIAs for TSA programs
                   in collaboration with the CPO. In its efforts surrounding the development and
                   implementation of the Secure Flight passenger pre-screening system, TSA has
                   constituted an external working group to evaluate privacy standards and practices,
                   as well as program security measures. TSA also notes that the DHS Privacy
                   Ofﬁce is forming a privacy oversight group that will serve as a future oversight
                   apparatus in this area.

                   OIG Evaluation: Although TSA acknowledges the importance of effective
                   oversight in its comments, it does not articulate plans for forming a TSA-wide
                   privacy advisory board with a mission as described in our recommendation.
                   Nevertheless, the TSA and DHS privacy ofﬁcers currently address the intended
                   PIA review function of such an advisory board. Meanwhile, an external working
                   group provides consultation that may address the scope and methods behind the
                   Secure Flight data analysis and research. This working group, however, cannot
                   be expected to provide consultation on the scope and methods of other data
                   analysis and research efforts undertaken by the agency. Absent the formation of a
                   TSA-wide advisory board to address these issues, TSA’s declared commitment to
                   form external working groups to perform this function on an ad hoc basis would
                   be considered fully responsive to this recommendation. Recommendation 7 is
                   resolved – open.

                   Recommendation 8: Develop procedures that will provide a clear process to:
                   (1) approve the agency’s role in data sharing that involves individually identiﬁable
                   information; and, (2) identify a particular employee responsible for monitoring
                   the data security, usage, and ﬁnal disposition of each transfer of individually
                   identiﬁable information in which TSA becomes involved.

                   TSA Response: TSA concurs with this recommendation. The TSA privacy
                   ofﬁcer, Ofﬁce of Chief Counsel and the DHS Privacy Ofﬁce currently advise
                   program staff on requirements on sharing personally identiﬁable information.
                   For the Secure Flight program, TSA has designated the Ofﬁce of Transportation



Page 62               TSA’s Role in the Use and Dissemination of Airline Passenger Data
                                            Appendix B
                                            OIG Evaluation of Management Comments



Vetting and Credentialing’s Information System Security Ofﬁcer as responsible
for monitoring compliance with privacy and conﬁdentiality policies and
procedures.

OIG Evaluation: TSA’s response does not suggest that a clear process for
approving agency participation in data transfers is in place. Nor does TSA’s
response identify a procedure for designating employees’ responsible for data
transfer monitoring activities. Recommendation 8 is resolved – open.




   TSA’s Role in the Use and Dissemination of Airline Passenger Data       Page 63
Appendix C
Recommendations



Recommendations
                  We recommend that the Assistant Secretary of Homeland Security for
                  Transportation Security, in coordination with the Chief Privacy Ofﬁcer, as
                  appropriate:

                  Recommendation 1: Develop clear protocols for obtaining airline passenger data
                  and facilitating its exchange among other parties.

                  Recommendation 2: Ensure privacy and personal data protections are written
                  into acquisition documents where performance may involve the collection,
                  maintenance, use, or dissemination of individually identiﬁable data.

                  Recommendation 3: Require ﬁnal reporting for acquisitions with intensive
                  data analysis or processing components that addresses data receipt, processing,
                  distribution, utilization, and disposition, as well as attention to data security and
                  privacy.

                  Recommendation 4: Require entities performing work for TSA to report to
                  the agency on how they are addressing data security, privacy protections and
                  conﬁdentiality.

                  Recommendation 5: Re-evaluate TSA’s response to FOIA requesters who
                  solicited information in September 2003 regarding their airline passenger data.
                  Such a reevaluation should, at minimum, involve the removal or amendment of
                  the letter posted on TSA’s FOIA reading room web site to reﬂect the fact that TSA
                  is in possession of JetBlue passenger data.

                  Recommendation 6: Adopt procedures for responding to external and intra-
                  departmental requests for information that help guarantee a comprehensive,
                  timely, and reliable response. At minimum, these procedures should include the:

                      •	   Designation of a primary point of contact and responsible staff person;
                      •	   Documentation of the scope of the search conducted for each request;
                      •	   Listing of materials provided to the requester; and
                      •	   Issuance of a formal written response indicating that the search for
                           related documents and information has concluded.

                  Recommendation 7: Appoint a TSA external privacy advisory board,
                  as speciﬁed in TSA’s ﬁve-point plan, to review all agency privacy impact


Page 64	             TSA’s Role in the Use and Dissemination of Airline Passenger Data
                                                                       Appendix C
                                                                       Recommendations



assessments, and, to provide consultation regarding the scope and methods of
TSA supported data analysis and research involving individually identiﬁable data.

Recommendation 8: Develop procedures that will provide a clear process to:
(1) approve the agency’s role in data sharing that involves individually identiﬁable
information; and, (2) identify a particular employee responsible for monitoring
the data security, usage, and ﬁnal disposition of each transfer of individually
identiﬁable information in which TSA becomes involved.




   TSA’s Role in the Use and Dissemination of Airline Passenger Data            Page 65
Appendix D
Airline Passenger Data Transfers Covered in this Report



                         Airline Passenger Data Transfers in this Report
                  Assistance to Other Agencies
                  ● TSA facilitated the transfer of Delta Air Lines passenger data to the
                      U.S. Secret Service in February 2002.
                  ●   TSA requested JetBlue Airways transfer passenger data to U.S. Army
                      subcontractor Torch Concepts. Data was provided in September 2002.
                  CAPPS II Development Efforts
                  ● While developing a prototype for CAPPS II, Ascent Technology
                      accessed Delta Air Lines passenger data in June 2002.
                  ●   While developing a prototype for CAPPS II, HNC Software accessed
                      records for Continental, Frontier, and America West Airlines
                      passengers in mid-2002.
                  ●   While developing a prototype for CAPPS II, HNC Software accessed
                      records for JetBlue Airways passengers in mid-2002.
                  ●   While developing a prototype for CAPPS II, HNC Software accessed
                      passenger records from various airlines through HNC E-Tickets in
                      mid-2002.
                  ●   In association with CAPPS II development efforts, Airline Automation,
                      Inc. provided TSA and four CAPPS II vendors with American Airlines
                      passenger records in May and June 2002. Each of these transfers is
                      treated as a separate case. The four CAPPS II vendors were:
                      ○ Ascent Technology, Inc.
                      ○ HNC Software, Inc.
                      ○ Infoglide Software Corporation
                      ○ Lockheed Martin Corporation
                  ●   While developing another CAPPS II component, IBM accessed Delta
                      Air Lines passenger records in February and March 2003.
                  ●   To test CAPPS II, TSA requested and received records for passengers
                      on numerous airlines from Sabre Holdings in May 2003.
                  CAPPS I Improvement
                  ● To assess ways to improve the existing CAPPS system, TSA requested
                      and received JetBlue Airways passenger records in May and June
                      2003.




Page 66                  TSA’s Role in the Use and Dissemination of Airline Passenger Data
                                       Appendix E
                                       Conﬁdentiality and Disposition of Airline Passenger Data Transferred




          Conﬁdentiality and Disposition of Airline Passenger Data Transferred

       Source                  Data                    Data                  Conﬁdentiality       Final Data
       Airline               Provider                Recipient                Agreement*          Disposition
       Delta                   Delta            U.S. Secret Service                 Yes           Destroyed
      American                 AAI                    Ascent                        Yes           Destroyed
      American                 AAI                HNC Software                      Yes           Destroyed
                                                                                                 Held in Secure
      American                  AAI                   Infoglide                     Yes
                                                                                                    Setting
                                                                                                 Held in Secure
      American                  AAI               Lockheed Martin                   Yes
                                                                                                    Setting
                                                                                                 Not Accessed;
      American                  AAI               TSA - CAPPS II                     No
                                                                                                 Not Retained
       Delta                   Delta                   Ascent                       Yes            Unknown
Continental, Frontier,
                             SHARES                HNC Software                  Unknown            Unknown
   America West
      JetBlue               Acxiom                 HNC Software                  Unknown            Unknown
      Various             HNC E-Tickets            HNC Software                  Unknown            Unknown
                                                                                                   Some Data
                                                                                                 Compromised;
       JetBlue                Acxiom               Torch Concepts                   Yes
                                                                                                Other Data Held in
                                                                                                  Secure Setting
        Delta                  Delta                     IBM                        Yes             Destroyed
                                                                                                  Not Accessed;
       Various                 Sabre                TSA - ONRA                       No
                                                                                                    Returned
                                                                                                 Held in Secure
       JetBlue                JetBlue              TSA - AVOPS                       No
                                                                                                     Setting

* An agreement between the data provider and data recipient that sets out the intended uses of the data, restricts
the sharing of the data, and binds the data recipient to maintain data conﬁdentiality. Contracts, memoranda of
understanding, conﬁdentiality agreements, and non-disclosure agreements are examples of types of agreements
that may meet this standard.




                            TSA’s Role in the Use and Dissemination of Airline Passenger Data               Page 67
Page 68
                                                                                                                                                                                              Appendix F




                                                                                  Summary Detail of Airline Passenger Data Transfers with TSA Involvement

                                                                         Date(s) of                   Data Transfer Parties                              Data Description
                                                                         Transfer              Airline        Provider       Recipient      Records      Individuals      Travel Dates
                                                                                                                             U.S. Secret
                                                                       February 2002             Delta          Delta                       Unknown       Unknown       02/01/01-02/26/02
                                                                                                                                                                                              Airline Passenger Data Transfer Detail




                                                                                                                              Service

                                                                     05/24/02, 06/17/02,                                                                                12/08/01-12/15/01,
                                                                                               American          AAI           Ascent      ~1,841,640*    Unknown
                                                                     06/27/02-06/29/02                                                                                 06/22/02-06/29/02, …

                                                                     05/24/02, 06/17/02,                                       HNC                                      12/08/01-12/15/01,
                                                                                               American          AAI                       ~1,841,640     Unknown
                                                                     06/27/02-06/29/02                                        Software                                 06/22/02-06/29/02, …

                                                                     05/24/02, 06/17/02,                                                                                12/08/01-12/15/01,
                                                                                               American          AAI          Infoglide    ~1,841,640     Unknown
                                                                     06/27/02-06/29/02                                                                                 06/22/02-06/29/02, …

                                                                     05/24/02, 06/17/02,                                     Lockheed                                   12/08/01-12/15/01,
                                                                                               American          AAI                       ~1,841,640     Unknown
                                                                     06/27/02-06/29/02                                        Martin                                   06/22/02-06/29/02, …




 TSA’s Role in the Use and Dissemination of Airline Passenger Data
                                                                         06/17/02,                                            TSA -
                                                                                               American          AAI                       ~1,841,640     Unknown      06/22/02-06/29/02, …
                                                                     06/27/02-06/29/02                                       CAPPS II

                                                                      Early June 2002            Delta          Delta          Ascent         N/A         Unknown           Unknown

                                                                     * “~” denotes approximate ﬁgure based on available information.
                                                                                  Summary Detail of Airline Passenger Data Transfers with TSA Involvement

                                                                          Date(s) of               Data Transfer Parties
                       Data Description
                                                                          Transfer           Airline      Provider    Recipient    Records      Individuals     Travel Dates

                                                                          Mid 2002          Continental                            787,081       Unknown      06/20/02- 07/03/02

                                                                                                                       HNC
                                                                          Mid 2002           Frontier     SHARES                    70,523       Unknown      06/20/02- 07/03/02
                                                                                                                      Software
                                                                                             America
                                                                          Mid 2002                                                 589,515       Unknown      06/20/02- 07/03/02
                                                                                              West
                                                                                                                       HNC
                                                                          Mid 2002           JetBlue       Acxiom                  2,725,352     Unknown      01/13/02- 09/05/02
                                                                                                                      Software
                                                                                                            HNC        HNC
                                                                          Mid 2002           Various                               400,000       Unknown      06/20/02- 06/25/02
                                                                                                          E-Tickets   Software

                                                                          Mid 2002          Unknown       WorldSpan   Infoglide   ~13,000,000    Unknown          Unknown

                                                                                                                       Torch
                                                                       September 2002        JetBlue       Acxiom                 ~5,000,000     2,226,715        Unknown
                                                                                                                      Concepts

                                                                          02/27/2003          Delta         Delta       IBM       ~1,000,000     Unknown          Unknown
                                                                                                                                                                                    Appendix F




                                                                                                                       TSA -




  TSA’s Role in the Use and Dissemination of Airline Passenger Data
                                                                          May 2003           Various       SABRE                  ~1,500,000     Unknown          Unknown
                                                                                                                       ONRA
                                                                                                                                                              07/29/02, 01/21/03,
                                                                           05/14/03,                                    TSA -                                 01/23/03, 03/11/03,
                                                                                             JetBlue       JetBlue                   3,909       Unknown
                                                                      05/23//03, 06/04/03                              AVOPS                                  05/18/03, 05/20/03,
                                                                                                                                                                   06/01/03
                                                                                                                                                                                    Airline Passenger Data Transfer Detail




Page 69
Appendix G
Privacy Act of 1974 and E-Government Act of 2002



Privacy Act of 1974
                          The provisions of the Privacy Act are invoked when a system that meets the legal
                          standard for a “system of records” is created or maintained. Such a system must
                          be under the control of a federal agency and contain individually identiﬁable
                          information. In addition, a Privacy Act system of records must have records
                          that are retrieved or accessed by a governmental entity or its proxy using an
                          individually identifying particular, e.g., name, social security number, etc.
                          Furthermore, according to TSA, the system must have a decision-making aspect
                          that supports an agency function and has a bearing on individuals.69 Systems of
                          record covered by the Privacy Act include personnel ﬁles maintained in a ﬁle
                          drawer as much as databases operating on computer networks.

                          Under the Privacy Act, notices for all systems of record are to be published in the
                          Federal Register. Published systems of record notices document the authorities
                          under which the government agency maintains the system of records, the purpose
                          the system serves, the types of records contained in the system, and their routine
                          uses. With limited exceptions, records covered by the Privacy Act may only be
                          released in line with the “routine uses” of the system reﬂected in the system notice
                          or with the consent of the individual to whom the record pertains.

                          Consistent with the Privacy Act, DOT published an initial system of records
                          notice for CAPPS II on January 15, 2003.70 After reviewing the substantial
                          volume of public comments on the initial CAPPS II notice, TSA issued a revised
                          Interim Final Notice for CAPPS II. 71 Published on August 1, 2003, the interim
                          notice provided substantially more detail on CAPPS II design and proposed
                          function.

                          Importantly, the Privacy Act also grants individuals certain rights over records
                          pertaining to them. Provided such records are not maintained in an exempted
                          system, individuals have the right to access, amend, and contest the accuracy of
                          records about them.




69
   Department of Homeland Security, Transportation Security Administration, Ofﬁce of Chief Counsel, Report on Passenger 

Name Record Data Exchanges Involving Projects to Improve Passenger Screening, August 18, 2004, 

pp. 50-52.

70
   68 Fed. Reg. 2101 (Jan. 15, 2003).

71
   68 Fed. Reg. 45265 (Aug. 1, 2003).



Page 70                      TSA’s Role in the Use and Dissemination of Airline Passenger Data
                                                 Appendix G
                                                 Privacy Act of 1974 and E-Government Act of 2002



              The Privacy Act also affords protections against improper access to and disclosure
              of information contained in a system of records. Criminal penalties may be
              applied under the statute in cases where the following has occurred:

                  • 	 Information barred from disclosure has been disclosed;
                  • 	 Systems of record have been willfully maintained without adherence to
                      notiﬁcation requirements; and
                  • 	 Records have been requested or obtained under false pretenses.



E-Government Act of 2002
              Provisions of the E-Government Act, effective on April 17, 2003, mandated that
              all agencies conduct PIAs for new information technology investments and new
              electronic information systems and collections. The PIA development process
              was designed to ensure that data handling is compliant with relevant laws,
              that agencies consider the risks and effects of their data systems, and that they
              examine system design alternatives that could mitigate privacy risks. Ultimately,
              PIAs result in published documents that address the following:

                  •	  What information is to be collected
                  •	  Why the information is being collected
                  •	  What are the intended uses of the information
                  •	  With whom the information will be shared
                  •	  What opportunities individuals have to decline to provide information
                      or consent to particular uses of the information and how individuals can
                      grant consent
                  • 	 How the information will be secured
                  • 	 Whether a system of records is being created under the Privacy Act.

              The E-Government Act designated the Ofﬁce of Management and Budget (OMB)
              as the entity responsible for detailing certain E-Government Act implementation
              requirements. OMB issued guidelines on when federal agencies are required to
              conduct PIAs. Speciﬁcally, OMB guidance requires the conduct of PIAs before:

                  • 	 Developing or procuring [information technology] systems or projects
                      that collect, maintain or disseminate information in identiﬁable form
                      from or about members of the public; or
                  • 	 Initiating a new electronic collection of information in identiﬁable
                      form for 10 or more persons, excluding agencies, instrumentalities or


                 TSA’s Role in the Use and Dissemination of Airline Passenger Data	       Page 71
Appendix G
Privacy Act of 1974 and E-Government Act of 2002



                                      employees of the federal government; and, OMB also mandates the
                                      conduct of a PIA when changes to existing systems create new privacy
                                      risks.72




72
     OMB Guidance for Implementing the Privacy Provisions of the E-Government Act of 2002, M-03-22 (Sept. 26, 2003).



Page 72                        TSA’s Role in the Use and Dissemination of Airline Passenger Data
                                                 Appendix H
                                                 JetBlue Passenger Data Provided to TSA



  Date        Flight #         Origin         Destination Passengers

7/29/2002         47            JFK                FLL
1/21/2003         41            JFK                MCO
1/23/2003         15            JFK                FLL
1/23/2003         20            TPA                JFK
1/23/2003         96            OAK                JFK
1/23/2003        191            JFK                LAS
3/11/2003         17            JFK                FLL
3/11/2003         20            JFK                ROC
3/11/2003         34            PBI                JFK
3/11/2003         35            JFK                PBI
3/11/2003         42            MCO                JFK
3/11/2003         43            ROC                JFK
3/11/2003         49            JFK                FLL
3/11/2003         52            MCO                JFK
3/11/2003         59            JFK                MCO
3/11/2003         64            RSW                JFK
3/11/2003         82            LGB                JFK
3/11/2003         90            OAK                JFK
3/11/2003        101            IAD                FLL
3/11/2003        107            LGB                IAD
3/11/2003        221            JFK                LGB
3/11/2003        222            LGB                JFK
3/11/2003        247            OAK                LGB
3/11/2003        281            LAS                LGB
3/11/2003        345            JFK                RSW
5/18/2003         47            JFK                FLL
5/20/2003         79            JFK                MCO
 6/1/2003          1            JFK                FLL
 6/1/????        25             JFK                FLL
 6/1/????        81             JFK                FLL

                                                 TOTAL                 3,925




   TSA’s Role in the Use and Dissemination of Airline Passenger Data            Page 73
Appendix I
DHS Privacy Ofﬁce Requests of TSA



                   We reviewed documentation and conducted interviews regarding eight requests
                   for information and summarized each of these requests and TSA’s responses.

                       1. 	 The CPO sent an e-mail on September 18, 2003, to a TSA public affairs
                            ofﬁcer requesting any documentation regarding the transfer of data by
                            JetBlue to TSA or DOT. It does not appear from documents that we
                            reviewed that this request was ever answered directly. On November
                            12, 2003, the TSA chief of staff e-mailed the CPO acknowledging TSA’s
                            non-responsiveness and stating that the public affairs ofﬁcer had no
                            information in response to the request.

                       2. 	 On October 24, 2003, the CPO e-mailed the ONRA deputy director
                            asking for “a thorough accounting of any contact with Torch Concepts,
                            JetBlue, DOD or others, while at ONRA, DOT, or elsewhere, as it
                            relates to the JetBlue incident.” The same day, ONRA’s deputy director
                            responded via e-mail suggesting a meeting for November 11, 2003, and
                            the CPO agreed.

                       3. 	 The CPO sent an e-mail to TSA’s Assistant Administrator for Policy on
                            October 24, 2003, requesting that they discuss the JetBlue PNR transfer
                            to Torch Concepts. We did not locate a direct response to the CPO’s
                            e-mail in documents we reviewed; however, the Ofﬁce of the Assistant
                            Administrator for Policy assisted with the document collection effort
                            discussed in the next paragraph. In our May 4, 2004, interview with the
                            CPO, she did not suggest the Assistant Administrator was not responsive
                            to her requests.

                       4. 	 On November 12, 2003, the CPO sent a request to the TSA
                            Administrator, Deputy Administrator, and Chief of Staff asking for help
                            to ensure a thorough internal review was made of any documents or
                            personnel regarding the JetBlue PNR transfer. The CPO requested a
                            response by November 21, 2003. On November 25, 2003, TSA provided
                            a response to the CPO. Both the CPO and TSA employees said that the
                            response consisted of hundreds of pages of materials. In a February 16,
                            2004, e-mail, the TSA employee who coordinated the response to this
                            request said that he worked with the Policy Ofﬁce, the FOIA ofﬁce, and
                            the CIO’s ofﬁce to collect materials for the CPO.

                       5. 	 On January 20, 2004, the CPO sent an e-mail to TSA’s FOIA ofﬁcer
                            asking for TSA documents from a 2002 FOIA request about Northwest



Page 74	              TSA’s Role in the Use and Dissemination of Airline Passenger Data
                                                                            Appendix I
                                                                            DHS Privacy Ofﬁce Requests of TSA



                                  Airlines. There was one document responsive to this request and on
                                  January 20, 2004, the FOIA ofﬁcer offered to either fax or hand-deliver it
                                  to the CPO.

                              6. 	 On February 13, 2004, the CPO sent a request to TSA’s FOIA ofﬁcer
                                   asking for all documents gathered for FOIA requests related to JetBlue.73
                                   In the documents we reviewed relating to this request, we found no direct
                                   response.

                              7. 	 On February 16, 2004, the CPO sent a follow-up request to TSA’s FOIA
                                   ofﬁcer asking for all documents gathered for FOIA requests. The CPO
                                   told us that the FOIA ofﬁce provided documents in February 2004 and
                                   that the FOIA ofﬁce was very responsive to requests for information.

                              8. 	 On January 29, 2004, the former CAPPS II program manager sent a letter
                                   to the Army OIG and copied TSA’s OCC. The letter addressed several of
                                   the Army OIG’s questions pertaining to their investigation of the transfer
                                   of JetBlue PNR data to Torch Concepts. On February 16, 2004, the CPO
                                   requested OCC provide the letter and on February 17, 2004, TSA’s chief
                                   counsel faxed it to the CPO.




73
  The Electronic Privacy Information Center, the ACLU, and Wired News made FOIA requests in September and October
2003. The FOIA requests generally asked for materials related to JetBlue, DOD subcontractor Torch Concepts, Acxiom
Corporation, and DOD contractor SRS Technologies. The FOIA documents were later turned over to the DHS Privacy
Ofﬁce.

                            TSA’s Role in the Use and Dissemination of Airline Passenger Data	               Page 75
Appendix J
Major Contributors to This Report



                     Carlton Mann, Chief Inspector, Department of Homeland Security,
                     Ofﬁce of Inspections, Evaluations, and Special Reviews

                     Kenneth McKune, Senior Inspector, Department of Homeland Security, Ofﬁce of
                     Inspections, Evaluations, and Special Reviews

                     Frank Parrott, Senior Inspector, Department of Homeland Security,
                     Ofﬁce of Inspections, Evaluations, and Special Reviews

                     Justin H. Brown, Inspector, Department of Homeland Security,
                     Ofﬁce of Inspections, Evaluations, and Special Reviews

                     Patrick Harenburg, Inspector, Department of Homeland Security,
                     Ofﬁce of Inspections, Evaluations, and Special Reviews




Page 76                 TSA’s Role in the Use and Dissemination of Airline Passenger Data
                                                                       Appendix K
                                                                       Report Distribution



Department of Homeland Security

Secretary
Deputy Secretary
Under Secretary for Border and Transportation Security
Under Secretary for Management
Director, United States Secret Service
General Counsel
Assistant Secretary for Public Affairs
Chief of Staff
Chief Privacy Ofﬁcer
Deputy Chief Security Ofﬁcer
Management OIG Liaison


Transportation Security Administration

Assistant Secretary of Homeland Security for Transportation Security
OIG Liaison


Ofﬁce of Management and Budget

Chief, Homeland Security Branch
DHS OIG Program Examiner


Congress

Committee on Homeland Security and Governmental Affairs
United States Senate

Committee on the Judiciary
United States Senate

Congressional Oversight and Appropriations Committees, as appropriate




   TSA’s Role in the Use and Dissemination of Airline Passenger Data               Page 77
Page 78   TSA’s Role in the Use and Dissemination of Airline Passenger Data
Additional Information and Copies

To obtain additional copies of this report, call the Ofﬁce of Inspector General (OIG)
at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG web site at
www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to department programs or operations, call the
OIG Hotline at 1-800-323-8603; write to DHS Ofﬁce of Inspector General/MAIL STOP
2600, Attention: Ofﬁce of Investigations - Hotline, 245 Murray Drive, SW, Building
410, Washington, DC 20528, or email DHSOIGHOTLINE@dhs.gov. The OIG seeks to
protect the identity of each writer and caller.
